<html>
<title> - BUILDING PARTNERSHIP CAPACITY AND DEVELOPMENT OF THE INTERAGENCY PROCESS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-146]

 
   BUILDING PARTNERSHIP CAPACITY AND DEVELOPMENT OF THE INTERAGENCY 
                                PROCESS

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 15, 2008


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                  U.S. GOVERNMENT PRINTING OFFICE
45-514                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        W. TODD AKIN, Missouri
ROBERT ANDREWS, New Jersey           J. RANDY FORBES, Virginia
SUSAN A. DAVIS, California           JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK E. UDALL, Colorado              MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              PHIL GINGREY, Georgia
NANCY BOYDA, Kansas                  MIKE ROGERS, Alabama
PATRICK J. MURPHY, Pennsylvania      TRENT FRANKS, Arizona
HANK JOHNSON, Georgia                BILL SHUSTER, Pennsylvania
CAROL SHEA-PORTER, New Hampshire     THELMA DRAKE, Virginia
JOE COURTNEY, Connecticut            CATHY McMORRIS RODGERS, Washington
DAVID LOEBSACK, Iowa                 K. MICHAEL CONAWAY, Texas
KIRSTEN E. GILLIBRAND, New York      GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania             DOUG LAMBORN, Colorado
GABRIELLE GIFFORDS, Arizona          ROB WITTMAN, Virginia
NIKI TSONGAS, Massachusetts
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                 Mark Lewis, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Tuesday, April 15, 2008, Building Partnership Capacity and 
  Development of the Interagency Process.........................     1

Appendix:

Tuesday, April 15, 2008..........................................    51
                              ----------                              

                        TUESDAY, APRIL 15, 2008
   BUILDING PARTNERSHIP CAPACITY AND DEVELOPMENT OF THE INTERAGENCY 
                                PROCESS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     4
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Gates, Hon. Robert M., Secretary of Defense......................     5
Mullen, Adm. Michael G., USN, Chairman, Joint Chiefs of Staff....    11
Rice, Hon. Condoleezza, Secretary of State.......................     8

                                APPENDIX

Prepared Statements:

    Gates, Hon. Robert M.........................................    55
    Rice, Hon. Condoleezza.......................................    60

Documents Submitted for the Record:

    Letter to Mr. Marshall dated July 2, 2008, signed by the 
      Assistant Secretary of Defense for Legislative Affairs and 
      the Assistant Secretary of State for Legislative Affairs...    77

Witness Responses to Questions Asked During the Hearing:

    Mr. Marshall.................................................    81
    Mr. Skelton..................................................    81

Questions Submitted by Members Post Hearing:

    Mr. Conaway..................................................    86
    Mrs. Gillibrand..............................................    88
    Mr. Marshall.................................................    86
    Mr. Spratt...................................................    85
   BUILDING PARTNERSHIP CAPACITY AND DEVELOPMENT OF THE INTERAGENCY 
                                PROCESS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Tuesday, April 15, 2008.
    The committee met, pursuant to call, at 9:33 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Ladies and gentlemen, welcome to our hearing 
this morning. Two quick announcements. There is a hard stop on 
this hearing at 12:30. The witnesses turn to pumpkins at 12:30 
and we have promised to let them leave at that time. So I urge 
the five-minute rule be adhered to strictly. And we will also 
have a break for the witnesses at 11:00. And when that happens, 
I hope that the audience will stay in their seats for them to 
repair to the back room for the five-minute break.
    So let me officially say good morning and welcome our 
witnesses to the House Armed Services Committee on Building 
Partnership Capacity and Developments in the Interagency 
Process. This is a historic moment, historic because we have 
two distinguished guests with us. In the history of our 
country, this has not happened before--the Honorable Robert 
Gates, Secretary of Defense, and the Honorable Condoleezza 
Rice, Secretary of the State testifying before a committee, and 
we appreciate your being with us on this very important topic.
    I understand also that Admiral Mullen, Michael Mullen, 
chairman of the joint chiefs is on hand to help answer your 
questions, although as I understand it, will not be offering 
official testimony. Is that correct?
    Admiral Mullen. I actually have a brief opening statement, 
sir.
    The Chairman. Fine. Thank you. Two years ago this month in 
April 2006, the House Armed Services Committee held two 
hearings, one on the interagency process and one the next week 
on building partnership capacity. Today we have combined both 
of those topics into one hearing and we will see if that 
represents progress. These are two very important topics for 
our committee to explore, and in many ways they are 
intertwined. Our country faces a more complex security 
environment today than that of the Cold War. We have seen a 
growing realization that the Nation's challenges such as 
fighting the wars in Iraq and Afghanistan, fighting terrorism, 
preventing the proliferation of weapons of mass destruction 
(WMD) require holistic strategies that make use of all the 
capabilities of all of our government agencies.
    Instead, our national security structures remain 
essentially unchanged from the days of the Cold War. The 
mechanisms to integrate all of the United States governmental 
departments and agencies that should play a role in the 
development of our national security policy and in translating 
that policy into integrated action are weak if they exist at 
all. Where they do exist, they are usually the ad hoc efforts 
of those directly engaged in the challenge of the moment and 
not the result of a deliberative process designed to achieve a 
unity of effort that emerges as a natural product of 
governmental function. Our experiences in Iraq and Afghanistan 
are forcing solutions on those issues. Just as those conflicts 
will not be solved by military power, so too is the expertise 
we most need to make a difference there essentially diplomatic.
    Secretary Rice, I commend your efforts--in partnership with 
those like Secretary Gates--to advocate for adequate funding 
for the State Department in the President's budget request and 
in transforming the Foreign Services culture to adapt to the 
needs of the post-9/11 world. Cultural change takes time and 
requires sufficient resources. But my view is that some of our 
problems in Iraq and Afghanistan would have been avoided at the 
beginning with the right civilian capabilities deployed in 
sufficient numbers.
    In its annual submission of legislative proposals for 
consideration in this year's National Defense Authorization Act 
(NDAA), the Department of Defense (DOD) has asked the Congress 
to consider a set of broad-reaching authorities they call 
building partnership capacity. Most of these are not new. We 
have seen them, and in some cases, acted on them. But in many 
ways, this looks like one of the ad hoc efforts I have 
mentioned. They are proposed near-term solutions to deal with 
real problems, but without the discussion we want to see of how 
these authorities fit into the broader set of tools that have 
traditionally resided in the State Department.
    Last year, this committee set the Department of Defense, 
particularly the military services, on a course to reevaluate 
the roles and missions of the Department. The discussion today 
is also about roles and missions. What is and what should be 
the State Department's (DOS) role in the training and equipping 
of foreign militaries and in mustering the resources to prevent 
conflict? What existing programs and institutions have to be 
reformed? How do we ensure that the roles and missions that 
should be resided with the State are funded through the 
President's budget request?
    In some ways, the specific legislative requests seem to 
indicate that the current authorities and processes governing 
foreign military assistance today residing within the State 
Department's jurisdiction are too inflexible to meet current 
security requirements. It seems to indicate recognition that 
the national security-related capabilities of civilian 
agencies, most notably, the State Department, must be 
strengthened.
    In the absence of a national framework for that to happen, 
the Defense Department is willing to use some of its resources 
toward that end. In many ways, therefore, these authorities 
represent the Department of Defense's effort to jump start and 
take responsibility for resourcing an interagency process. In 
recent years, this committee has considered these and similar 
authorities. While we have not approved them in their entirety, 
let me be clear, we are very supportive of the goals, the 
training and equipping of partners who will fight with us or 
for us and improving civilian capabilities to deal with tough 
theaters like Iraq and Afghanistan.
    We have admitted that there was some concern, though. Some 
of that concern has had to do with what appears to be the 
migration of State Department activities to the Defense 
Department. The State's Foreign Military Financing (FMF) 
program has put in place a strong system of safeguards and 
controls through legislation and policy all overwatched by 
persons of considerable expertise. Why, then, we wonder, was 
the Department of Defense asking for similar authority. Why 
can't the FMF program handle it? Some of the concerns revolve 
around funding issues.
    As I have mentioned, Secretary Rice has been challenged in 
finding additional funding through State's budget. To provide 
funding from the Department of Defense generally means drawing 
on operation and maintenance funds. I don't need to tell anyone 
that those funds are tight and need to go to the Department of 
Defense operations and maintenance costs. In the end, Congress 
has tried to provide sufficient authority for the most pressing 
needs of the Department of Defense while strongly encouraging 
the Administration to develop a more integrated, interagency 
approach to building partnership capacity. That you are both 
back here today in support of greater authority for the Defense 
Department would indicate that the Administration has not taken 
that hint.
    Do these requests for expanding Department of Defense 
authorities really represent the future of interagency 
thinking? I hope not. But where do we go? Whether the Congress 
acts on these issues, be they the trained equip authority known 
as ``1206'' or the authorization for the transfer of Department 
of Defense monies to the State Department, has been in limited 
scope and for a limited duration. It is now time to consider 
whether Congress will extend or expand these programs.
    But how? While Congress has acted on these issues as a 
temporary fix, what is the way forward from here? That is what 
we hope to hear today. Is the Department of Defense becoming 
the de facto lead agency in what used to be the State 
Department's realm? If so, why? How do we see these programs 
evolving from the ad hoc efforts to fully institutionalized 
governmentwide solutions? Two years ago, as I said, we had a 
hearing on this very subject where both then Chairman Hunter 
and I as ranking member expressed our concerns about these 
issues. The concerns I venture to say have not changed over the 
intervening times. Secretary Gates, Secretary Rice you have the 
opportunity today. From you we hope to hear how the 
Administration has used those two years to mature its approach 
on those specific issues. And I will expect you will need to 
explain to us why or why it hasn't.
    Before I conclude, let me take an additional minute to 
address the testimony this committee heard last week with 
General Petraeus and Ambassador Crocker. Needless to say, they 
are among the finest we have in public service, but they are 
not responsible for taking the broader view that our two 
Secretaries must take on our national security. I continue to 
be deeply concerned that the Iraqis are not taking advantage of 
the opportunities our troops have provided for them. Moreover, 
Secretary Gates, I know you also share my concern about the 
state of our military readiness if they are called upon to 
fight elsewhere, heaven forbid. I see a desperate need for 
increased resources in Afghanistan so we don't lose that 
effort. When we know that the most likely source of attack upon 
our Nation is coming from the Afghanistan/Pakistan border, I 
have a hard time understanding why Iraq is priority one instead 
of Afghanistan being priority number one. With that, I will now 
turn to my friend, the ranking member from California, Mr. 
Hunter.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman, and thanks for holding 
this very timely hearing. And I would like to join you in 
welcoming our witnesses, Secretary Gates and Secretary Rice as 
well as Admiral Mullen, who I understand is here and available 
to answer questions for members. It seems to me that at first 
glance, today's topics, building partners capacity and 
reforming the interagency system, are unrelated. However, I 
believe that the need for the Defense Department to train and 
equip foreign forces and to provide funding for stabilization 
program social security is emblematic for interagency reform.
    In recent years, the defense authorization laws have grown 
the ability of DOD to build the capacity of foreign forces or 
otherwise stabilize foreign nations through numerous programs. 
I hope today our witnesses will describe these initiatives, 
including the three-year section 1206 pilot program that allows 
DOD to train and equip partner militaries for counterterrorism 
or stability operations and the three-year section 1207 
transfer authority that allows State Department to redirect DOD 
funds to governance, train and equip other stabilization 
programs worldwide, and last, the longer term section 1208 
program employed by our special operation forces.
    As you can see, Congress has recognized the need for the 
Defense Department to play in this foreign assistance arena. 
However, I note that Congress enacted many of these programs on 
a temporary basis. We have always been very conservative about 
putting these programs in place and we clearly outlined our 
legislative intent that they serve as stopgap measures. As 
mentioned during an April 2006 full committee hearing on 
building partner capacity, we wanted to give the Administration 
time to address the larger problem of how our ability to train 
and equip foreign forces and to provide stabilization aid is 
arranged under the State Department's traditional foreign 
assistance programs. We wanted to avoid increasing reliance on 
our Nation's military personnel who we all know have a can-do 
ethos and are willing to help in this area but who are actively 
engaged in combat operations and who need every single penny of 
operation and maintenance and other funding that we are 
providing them.
    For example, I note that with some concern that 10 million 
of DOD funding was recently used for government and 
infrastructure in Nepal to hedge against the risk of communist 
domination. I am curious which DOD programs received 10 million 
less funding so that this stabilization project could occur. 
More broadly, I would like to hear about the U.S. foreign 
assistance strategy and the steps you have taken in the two 
years since this committee's foreign assistance hearing to 
address shortfalls and challenges in the broader foreign 
assistance program.
    It seems to me that the need to train and equip foreign 
forces and to provide stabilization programs will remain 
necessary as we continue to fight the global war on terror 
(GWOT). That said, the long-term answer must reflect an 
integrated approach to foreign assistance and not simply just a 
shift in those types of missions to U.S. military forces and 
that is something this committee is traditionally pushed back 
against because of this potential for a fairly substantial draw 
on DOD funding, funding that could come from some other 
important missions. And I believe that a long-term integrated 
approach should emerge from an updated national security 
architecture that is adapted to the full range of 21st century 
challenges.
    Members of Congress have been actively discussing possible 
reforms in the national security architecture to make the 
interagency process and structures as efficient and effective 
as possible. In fact, this committee played an integral role in 
exploring this issue through both a legislatively required 
study and the work of our Oversight and Investigation 
Subcommittee.
    So today we are discussing foreign assistance, but 
reforming the interagency would also have a beneficial impact 
on a range of other important issues. For example, staffing 
provincial reconstruction teams (PRTs), deploying civilian 
personnel abroad, and involving other departments, such as 
Justice and Homeland Security and overseas endeavors.
    So this committee wants to be as supportive as possible in 
achieving the range of our Nation's national security missions 
to develop the various elements within the foreign assistance 
toolbox without damaging the ability of our military to 
accomplish or assign missions. I think we have got to take a 
careful look at the role, missions, and relationships among our 
national security-related departments and agencies and 
hopefully, Mr. Chairman, this hearing today will help members 
of this committee to have this conversation. So Mr. Chairman, 
thank you for holding this hearing. I welcome our guests and I 
look forward to the testimony.
    The Chairman. I certainly thank the gentleman. Secretary 
Gates, welcome. And we will proceed from here.

    STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF DEFENSE

    Secretary Gates. Thank you, Mr. Chairman, members of the 
committee. I appreciate the opportunity to appear with 
Secretary Rice and Admiral Mullen this morning. The subject 
being discussed and debated in this hearing goes to the heart 
of the challenge facing our national security apparatus. How 
can we improve and integrate America's instruments of national 
power to reflect the new realities and requirements of this 
century? For years to come, America will be grappling with a 
range of challenges to the international system and our own 
security from global terrorism to ethnic conflicts to rogue 
nations and rising powers. These challenges are, by their 
nature, long-term, requiring patience and persistence across 
multiple Administrations. Most will emerge from within 
countries with which we are not at war. They cannot be overcome 
by military means alone and they extend well beyond the 
traditional domain of any single government agency or 
department.
    They will require our government to operate with 
unprecedented unity, agility, and creativity, and as I have 
said before, they will require devoting considerably more 
resources to nonmilitary instruments of national power, which 
need to be rebuilt, modernized and committed to the fight. Over 
the last 15 years, the U.S. Government has tried to meet post-
Cold War challenges and pursue 21st century objectives with 
processes and organizations designed in the wake of a Second 
World War.
    Operating within this outdated bureaucratic superstructure, 
U.S. Government has sought to improve interagency planning and 
cooperation through a variety of means, new legislation, 
directive, offices, coordinators, czars, authorities, and 
initiatives, with varying degrees of success. The recent 
efforts at modernizing the current system have faced obstacles 
when it comes to funding and implementation.
    Some real progress has been made. One of the most important 
and promising developments of recent years is the main subject 
of today's hearing: the U.S. Government's ability to build the 
security capacity of partner nations. And in summary, the 
global train and equip program known as section 1206 provides 
commanders a means to fill long-standing gaps in the effort to 
help other nations build and sustain capable military forces. 
It allows Defense and State to act in months rather than in 
years. The program focuses on places where we are not at war, 
but where there are both emerging threats and opportunities. It 
decreases the likelihood that our troops will be used in the 
future. Combatant commanders consider this a vital tool on the 
war on terror beyond Afghanistan and Iraq.
    It has become a model of cooperation, of interagency 
cooperation between State and Defense, both in the field and 
here in Washington, as I hope will be on display here today. 
Some have asked why this requirement should not be funded and 
executed by the State Department or that the issue as a matter 
of State's manning and funding to the point where it could take 
over this responsibility.
    In my view, building partner capacity is a vital and 
enduring military requirement, irrespective of the capacity of 
other departments, and its authorities and funding mechanisms 
should reflect that reality. The Department of Defense would no 
more outsource this substantial and costly security requirement 
to a civilian agency than it would any other key military 
mission. On the other hand, it must be implemented in close 
coordination and partnership with the Department of State. For 
a long time, programs like the State Department's Foreign 
Military Financing were of minimal interest to the U.S. Armed 
Forces, that our military would one day need to build large 
amounts of partner capacity to fulfill its mission was not 
something that was anticipated when the FMF program began. The 
attacks of 9/11 and the operations that have followed around 
the globe reinforced to military planners that the security of 
America's partners is essential to America's own security.
    In the past, there was a reasonable degree of certainty 
about where U.S. forces could be called to meet threats. What 
the last 25 years have shown is that threats can emerge almost 
anywhere in the world. However, even with the plus up of the 
Army and the Marine Corps, our own forces and resources will 
remain finite. To fill this gap, we must help our allies and 
partners to confront extremists and other potential sources of 
global instability within their borders. This kind of work 
takes years. It needs to be begun before festering problems and 
threats become crises requiring U.S. military intervention at 
substantial financial, political, and human cost.
    As a result, the Department came to the Congress three 
years ago asking to create a DOD global train and equip 
authority. We knew that the military could not build partner 
capacity alone. We recognized this activity should be done 
jointly with State, which has the in-country expertise and 
understanding of broader U.S. foreign policy goals. For that 
reason, Defense asks the Congress to make State a co-equal 
decision maker in law, hence the dual turnkey mechanism. The 
primary benefits of global training and equip will accrue to 
the country over 10 to 15 years, but the 1206 program already 
has shown its value. A few examples.
    Providing urgently needed parts and ammunition to the 
Lebanese Army to defeat a serious al Qaeda-affiliated terrorist 
threat in a Palestine refugee camp, supplying helicopters, 
spare parts, night vision devices, and night flight training to 
enhance Pakistani special forces' ability to help fight al 
Qaeda in the northwest territories and setting up cordons run 
by partner nations in waters surrounding Indonesia, Malaysia, 
and the Philippines that over time will reduce the risk of 
terrorism and piracy in southeast Asia.
    But we need help from the Congress to sustain this program 
that military leaders from combatant commanders to brigade 
level say they need, as section 1206 is due to expire at the 
end of this fiscal year. So we would ask you to make 1206 
permanent in recognition of an enduring Defense Department 
mission to build partner capacity, to increase its funding to 
$750 million, which reflects combatant commander requirements. 
And to expand section 1206's coverage beyond military forces to 
include security forces that are essential to fighting 
terrorism and maintaining stability. I know members of the 
committee also have questions about section 1207, which 
currently allows defense to transfer up to $100 million to 
State to bring civilian expertise to bear alongside our 
military.
    We recently agreed with State to seek a five-year extension 
and an increase in the authority to $200 million. A touch tone 
for the Defense Department is that 1207 should be for civilian 
support to the military, either by bringing civilians to serve 
with our military forces or in lieu of them. I would close by 
noting that seeing these changes through, including the now 
central mission to build capacity of partner nations, will take 
uncommon vision, persistence, and cooperation between the 
military and civilian, the executive and the legislative, and 
among the different elements of the interagency. Though these 
kinds of activities and initiatives are crucial to protecting 
America's security and vital interests, they don't have the 
kind of bureaucratic or political constituency that one sees, 
for example, with weapons systems.
    So I applaud the Members of Congress who have stepped up to 
make these issues a priority. Mr. Chairman, I thank you again 
for the opportunity to testify today and for all this committee 
has done to support our Armed Forces.
    [The prepared statement of Secretary Gates can be found in 
the Appendix on page 55.]
    The Chairman. Mr. Secretary, thank you for your testimony. 
Secretary Rice, please.

     STATEMENT OF HON. CONDOLEEZZA RICE, SECRETARY OF STATE

    Secretary Rice. Thank you very much, Mr. Chairman, Mr. 
Ranking Member. Thank you very much. I would very much like to 
thank this committee for the opportunity to testify on this 
extremely important issue and to do so with my colleague and 
friend, Secretary Bob Gates. I believe that you have correctly 
identified the degree to which the challenges of the 21st 
century require both change within individual departments of 
our national security apparatus and better and stronger means 
for interagency action and coordination.
    In fact, I believe that the way that we have come to think 
with the world that we face, is that there are no longer neat 
categories between war and peace. More often, we are facing a 
continuum between war and peace, countries with which we are 
not at war, but which we must make capable of waging 
counterterrorism operations, countries that have emerged from 
war but are not yet in a position in which they are stable and 
in which we are still helping them to fight terrorists in their 
midsts or insurgencies in their midsts. And this is why the 
ability of the Department of State and the Department of 
Defense to work together in these environments is so crucial to 
our success.
    In many cases, we are engaging the fact that the threats to 
us come perhaps more from within states than between states. 
Indeed, we learned on September 11th that the most extreme 
threat to the United States came indeed from a failed State, 
Afghanistan. And that has changed significantly the security 
environment in which we act. As I said, this has required great 
changes in the way that we think about the departments and it 
requires different thinking about the relationship between our 
departments and the ability to coordinate them.
    Let me note that the Department of State and I thank you 
very much, Mr. Chairman, for your remarks about the efforts we 
are making in the Department of State, to transform our 
department. It has required us to think of ourselves as more 
expeditionary; it has required us to think of ourselves as a 
national security agency and President Bush has designated us 
as such. It requires us to work increasingly outside of 
capitals, whether in places in which there is growing 
population or more likely in places in which there are even 
ungoverned spaces and where the work will be quite dangerous. 
It has required us to redeploy some 300 officers out of Europe 
into places of greater need, to change our assignment 
processes, to be able to take on higher priority tasks whether 
they be in Iraq or Afghanistan or in Pakistan.
    And we are requesting in this year's 2009 budget from the 
President increases to both the Foreign Service and to the U.S. 
Agency for International Development (USAID), 1,100 new Foreign 
Service officers and 300 new USAID officers. And this reflects 
the fact that the effort to take the peace dividend in the 
1990's did not only cut into our military forces, but it, in 
fact, cut into our civilian capacity as well. There was a 
period in the 1990's when we were not keeping pace, even close 
to keeping pace, with attrition. And so we have a Foreign 
Service with professional officers of just under 6,500.
    I think Bob Gates has said somewhere near the number of 
people--is it military bands or Pentagon lawyers, Bob? But it 
is indeed a very----
    Secretary Gates. A lot more lawyers.
    Secretary Rice. A lot more lawyers than that. But it is 
indeed a very small professional force. USAID has dropped from 
highs in the 1980's of nearly 5,000 officers to 1,100 officers 
currently. And so we have some significant rebuilding of our 
civilian professional corps to do. We have also changed the way 
that we train our Foreign Service officers for nontraditional 
roles. We have increased the number of political officers 
serving with military commands and we have pushed the pull-out, 
as they have called, down to ever lower levels of command to 
help provide civilian expertise to commanders.
    I might just mention three points that have been raised in 
the initial comments. The first is that we have, in the foreign 
assistance reform that we have undertaken, tried to better 
integrate the foreign assistance dollars that the United States 
of America is providing to countries by a more integrated 
foreign assistance process that is led by a new director of 
foreign assistance who is simultaneously the head of USAID. 
Roughly 80 percent of all foreign assistance is provided by 
those two agencies.
    But in the process that we have to construct the foreign 
assistance budget, we have included the Department of Defense 
in the construction of that budget from the very first 
meetings, all the way up to the management review of budget 
requests that I chair at the end of the process before the 
submission of the budget to the Office of Management and Budget 
(OMB) and ultimately to the Congress. And so we have tried by 
including Defense Department and indeed joint staff 
representatives in our process to begin to take account of the 
needs of military commanders, of the need to build partner 
capacity in our overall foreign assistance approach.
    Two other major initiatives that we have undertaken is one 
to try and deal with the problems of stabilization. We faced 
this problem in the Balkans. We faced it again in Afghanistan. 
We faced it again in Iraq. And I think it is fair to say that 
in none of those cases did we have really the right answer in 
terms of the civilian component of stabilization. We simply 
didn't have a civilian institution that could take on the task 
of providing stabilization in the wake of war or civil war.
    As a result, I would be the first to say that our military 
did take on more tasks than perhaps would have been preferred. 
And we began some work when I was still national security 
advisor to think through how we might build a civilian 
institution that would be up to the task. We have, as a result, 
a civilian stabilization initiative. This initiative would 
create a rapid civilian response capacity for use in 
stabilization and reconstruction environments. It could be 
deployed alongside the military with international partners or 
on its own.
    The civilian stabilization initiative consists of three 
kinds of civilian responders: an active response corps of 
diplomats and interagency federal employees, who are selected 
and trained for this capability; a standby response corps of 
federal employees; and finally a civilian reserve corps of 
private sector, local government, and civil society experts 
with specialized skillsets. And I might especially underscore 
the importance of this last component because it is never going 
to be possible to keep within the environs of the State 
Department or really even government agencies the full range of 
expertise that one needs in state building, for instance city 
planners or justice experts, or police training experts and so 
this civilian component to be able to draw on the broader 
national community of experts, Americans who might wish to 
volunteer to go to a place like Afghanistan or Haiti or Liberia 
to help in at a time building we think is an important 
innovation, the President talked about this in his State of the 
Union one year ago and we are now ready to put that capacity 
into place.
    We have requested $248.6 million in the President's foreign 
assistance budget for the construction of that corps. If I may, 
let me just mention two other elements of our efforts to meet 
these new challenges. Secretary Gates has talked about the 1206 
authorities. We believe at State that this additional military 
assistance that has become available under section 1206 of the 
National Defense Authorization Act (NDAA) has proven 
invaluable. We fully support this and other complementary 
foreign assistance authorities within the jurisdiction of this 
committee, most notably, the extension and expansion of 1206 
and 1207 authorities. In 1206, we have provided a ``dual-key'' 
approach of delivering resources for emergent short-term 
military assistance needs and counterterrorism activities.
    Let me underscore that this is not a substitute for more 
robust funding for security assistance accounts, but we 
strongly advocate continuing these important contingency 
authorities and they are the additional tools that we need to 
meet emergent, exigent problems that very often emerge out of 
budget cycle. Secretary Gates mentioned the Lebanon situation.
    I think had the United States not been able to respond to 
the needs of the Lebanese armed forces for immediate military 
assistance in fighting the al Qaeda-linked terrorists in the 
Nahr El-Bared refugee camp, we might have seen a very different 
outcome. In the case that we were able to respond, we saw a 
Lebanese Army and a Lebanese government, democratic government, 
able to respond to that exigency. We have created many of these 
tools as tools that came out of necessity. It is true that it 
would be very good to have some of these put into more 
permanent authorities. But let me just say that I am a firm 
believer that it is often out of exigent circumstances, out of 
efforts to respond to new contingencies, out of efforts of this 
kind that we build our best capacity and that we build our best 
institutions. I am very much of the view that it is fine to 
think of trying to plan for the reconstruction of the 
interagency--the interagency process, but really we have gone a 
long way in creating new tools of interagency coordination.
    They may well have been born of necessity, they may well 
have been ad hoc in character at first, but whether it is 1206 
authorities or the civilian response corps or the work that we 
have done together in PRTs, I think that history will look back 
on this time as a time in which necessity was indeed the mother 
of invention. It is often the case that that which is invented 
in response to new and real on-the-ground contingencies turn 
out to be the best institutions for the future. Thank you very 
much.
    The Chairman. Thank you so much, Secretary Rice.
    [The prepared statement of Secretary Rice can be found in 
the Appendix on page 60.]
    The Chairman. Admiral Mullen.

   STATEMENT OF ADM. MICHAEL G. MULLEN, USN, CHAIRMAN, JOINT 
                        CHIEFS OF STAFF

    Admiral Mullen. Good morning, Mr. Chairman, Mr. Hunter, 
members of the committee. It is an honor to join Secretary 
Gates and Secretary Rice here and offer you my views on 
building partner capacity. As you know, I have long been 
committed to this effort, certainly from a philosophical 
perspective. It was at the core of what we were trying to do 
across southern Europe and northern Africa during my North 
Atlantic Treaty Organization (NATO) tour in Italy a few years 
ago. And it was the very rudder and keel of the 1,000 ship Navy 
concept that the Navy has pursued for the last few years.
    And it is becoming an increasingly critical component of 
joint operations during the war on terror in Iraq, Afghanistan, 
the Horn of Africa, and elsewhere around the world. At its 
core, building partner capacity is about helping solve problems 
before they become crisis. And helping contain crises before 
they become conflicts. It is about working with and through our 
international partners to appropriate security and self-
reliance and preclude the sort of conditions that invite the 
spread of malign influences, ideology, and investments.
    Put simply, it is about lifting all boats at the very same 
time. I have been very public in stating my conviction that not 
only is the U.S. military incapable of winning this long war 
all by itself, military means in and of themselves are 
insufficient to the task as well. Ours must be a broader reach. 
We need partners on the ground, partners in the interagency, 
partners in the international community, and partners across 
the spectrum of nongovernmental organizations. By building 
partner capacity, we are, in fact, building global capacity to 
meet modern, complex challenges, which is why today's hearing 
is to important. We must address now serious shortfalls in the 
U.S. Government's ability to assist our partners by at the very 
least extending and expanding our global train and equip and 
reconstruction assistance authorities.
    The Congress can also help by enacting all the authorities 
contained in the Building Global Partners Act. Without these 
additional investments, in building partner capacity, I believe 
we place at greater risk and imperil our own efforts to defense 
our own vital national interests. On that score, I want to 
thank you, Mr. Chairman, members of this committee and the 
House of Representatives for passing House Resolution 1084 for 
the establishment of a civilian response capability. It is a 
vital step forward in this direction and I both applaud and 
appreciate it. Thank you for your continued support to all of 
our men and women who serve and their families. I look forward 
to your questions.
    The Chairman. Thank you so much, Admiral. I will ask one 
question now and save my other questions until a bit later. But 
let me ask that the two Secretaries--what are you doing in your 
department, your respective departments, about bringing about 
the cultural change to improve interagency cooperation? We have 
seen in the Goldwater-Nichols effort there was a need for 
cultural change within each of the services, which has come 
about. And each of the two departments, by necessity and 
history, have had cultural differences. So what are you doing, 
if I may ask, within your respective departments to change or 
improve the culture which would fit into interagency 
cooperation better? Secretary Gates.
    Secretary Gates. I think that as Condi indicated, necessity 
is the mother of invention, and I think necessity has 
contributed to a cultural change in the Department of Defense 
since 2001 in terms of the need for greater interagency help, 
and I think the more that we have seen military personnel 
pressed into service to carry out tasks that they recognize are 
better performed by civilian experts, even though our folks do 
a good job of it, they would be the first to admit that when 
the real experts come in, it is a huge force multiplier. We 
hear this when we talk to PRT members, and we hear it when we 
talk to the military in Iraq and Afghanistan themselves.
    So I think what you have seen--what has been extraordinary 
in fact to me in returning to government at the end of 2006 is 
rather than what I saw for almost 35 years, 30, 40 years since 
I joined the government, instead of these agencies--instead of 
the Department of Defense building walls to keep the other 
agencies out and to guard turf, the military has been out 
begging practically for greater involvement by not just the 
State Department, by the Justice Department, Agriculture, 
Treasury, various other departments of government and has been 
one of the foremost advocates of strengthening interagency 
coordination and work in these areas that we are talking about.
    So I think that in most respects, the requirements of 
developments in Iraq and Afghanistan have to a considerable 
measure had a huge impact on the culture of the Department of 
Defense in terms of recognition of the need to seek help 
elsewhere that we have neither the personnel nor the expertise 
to be able to do all that is needed in these areas.
    The Chairman. Thank you. Secretary Rice.
    Secretary Rice. I would add--and I think I would say--much 
the same for the Department of State. In fact, if you look at 
where an awful lot of our officers are serving now, they are 
very often serving in places where they are in close contact 
with, if not actually embedded with, our military. So I could 
give you three different kinds of examples. PRTs in places like 
Iraq and Afghanistan are obviously the closest collaboration 
that we have. And when those officers come back from the 
experience of serving in a PRT, they do have a different view 
and a different culture about what it is that we do as 
diplomats as civilian support to counter insurgency operations. 
But it is not just in the major efforts like Iraq and 
Afghanistan, but we have had a very successful collaboration in 
the Philippines. Just recently the ambassador from the 
Philippines, Kristie Kenny, was back to brief the President on 
the successful counterinsurgency efforts in Mindanao in the 
Philippines. This was a place, Mr. Chairman, when we came 
everybody had said was given over to the Abu Sayyaf group. But 
through coordination with the Pacific Command (PACOM), with 
the--with our embassy and really a very strong 
counterinsurgency effort, we have turned--helped the Filipinos 
turn--Mindanao around.
    And then finally I would say that we have tried to make 
sure that we are transferring these experiences through joint 
seminars and courses at the Foreign Service Institute (FSI), at 
the National Defense University (NDU). I am going to sponsor an 
effort working with people at the National Defense University 
to do a lessons-learned, State Department's equivalent of a 
counterinsurgency manual for how the civilian peace for 
counterinsurgency has to work.
    We are learning a lot on the ground, but we need to take 
those lessons, capture them, and leave them for future 
Departments of State. We have increased the number of political 
officers serving with combatant commanders or with commanders 
and pushed it down several levels, and finally the training 
that our people do together for efforts like the PRTs, I think, 
is having an effect on the culture. Department of State 
diplomats are beginning, I think, to realize more and more that 
our work is increasingly not reporting on the politics of 
another country or spending time with government officials, but 
it is being out in the field with people, helping them improve 
their lives, helping them improve their governance, and 
hopefully creating a network of well-governed democratic states 
that will not be sources of terrorism and security risks.
    The Chairman. Thank you so much. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman. Mr. Secretary, 
Secretary Gates, you said that you understand on an increasing 
basis that DOD needs to seek help elsewhere. And you mentioned 
not only State, but Agriculture, Treasury, Justice, all of whom 
are supposed to be involved now in this major challenge of our 
time, manifested in the balance in which Iraq hangs. What kind 
of a grade, unvarnished grade, would you give right now from 
your perspective to Agriculture, Treasury, and Justice in terms 
of their participation in the Iraq operation?
    Secretary Gates. Mr. Hunter, first of all, I would say that 
a big part of the problem that we face here is not a lack of 
will, but a lack of capability. We have just sent a dozen or 
so--we, the U.S. Government--has just sent a dozen or so 
Treasury experts to Baghdad to help the ministries execute 
their budgets better. Various other departments are 
contributing, but it has been a long start-up time, and part of 
the reason is that other agencies do not have the deployable 
capability that they once--that were once contained in the U.S. 
Agency for International Development (USAID), when at the 
height of the Vietnam war, USAID had 15/16,000 employees, and 
they covered all of these skills, and they were all deployable, 
and they all wanted to serve in developing countries and around 
the world. So I would give--frankly, give the Departments 
probably an A for will, but we would have to talk about their 
repeating the semester when it comes to performance.
    Secretary Rice. Mr. Hunter, may I make one comment on this?
    Mr. Hunter. Certainly.
    Secretary Rice. I do think it is a matter of capability. 
And one reason that we need the civilian response corps is to 
be able to find that capability both inside the U.S. Government 
but also outside of it. There are going to be a lot of 
skillsets that we are never going to be able to keep inside the 
U.S. Government.
    The other thing we have done is we have made it possible, 
thanks to the U.S. Congress, for the State Department to 
reimburse. These used to be unreimbursable details. And if you 
are the Department of Agriculture with a committee that may not 
fully understand why the Department of Agriculture should be 
doing that, it does help to be able to reimburse, and we now 
have that capability.
    Mr. Hunter. Well, Madam Secretary, I saw what I thought 
were a couple of stark illustrations of a difference in 
attitude toward this challenge in Iraq manifested in the two 
departments. I looked at the re-up rates, re-enlistment rates 
of our combat soldiers, guys in the 101st, the 3rd Infantry 
Division, the first Marine division, and extraordinary re-
enlistment rates by the people that are in combat in the 
theaters, and then I looked at the report that came from the 
so-called town meeting that State held in which it was 
difficult for you folks to come up with the last reading of an 
additional 40 or 42 people to go to the Green Zone for the 
State Department.
    And I looked at the statements that they made in this town 
meeting where they thought that they would be in grave danger 
in the Green Zone, a place where our soldiers often consider to 
be a place where they take rest and relaxation (R&R). And there 
was a distinct difference in attitude, in culture in terms of 
engaging in this enormous challenge for our country. And I 
wonder what you--if you see that difference. And if so, if you 
have done anything to try to change that culture in State 
Department because I thought that was a sad commentary when you 
have tens of thousands of soldiers and Marines laying their 
lives on the line who are re-enlisting for that combat and you 
had State Department people standing up and saying they were 
not going to go to Iraq, that they wanted a different 
assignment, that they thought they would be in grave danger in 
the Green Zone. And really a total change from that--from that 
great spirit that we have seen in the past. And I have lived 
through the--in this congressional career through the Contra 
wars and through the Middle East operations in which State 
Department personnel performed extraordinarily. But I thought 
that that was a distinct change in the ethics, this ethic of 
engagement and participation in dangerous and inconvenient 
places that was manifested in this last couple of months.
    Secretary Rice. Thank you, Mr. Hunter. First of all, town 
halls are self-selecting and I think you will find that was a 
comment from a person who said that he felt in danger in the 
Green Zone. The great majority of that town hall was not even 
about assignments to Iraq. The last couple of comments were 
about assignments to Iraq, and I will tell you the blogs were 
lit up in the Department of State by people who were offended. 
And I mean Foreign Service officers who were serving not just 
in Iraq and Afghanistan and Islamabad, but serving in the deep, 
dark jungles of Guatemala as well, who were absolutely--or the 
highlands of Guatemala who were absolutely offended by those 
comments. Foreign Service officers are still serving in 
dangerous posts. They are still serving in posts where they 
cannot be accompanied by family. And I had no trouble after 
saying that I was prepared to direct assignments to Iraq, no 
trouble in getting not just the right people, but in getting 
them very quickly for our assignments in Iraq. To be fair, we 
have had to change some policies in the way that we deal with 
people, and where their families can stay and so forth. But I 
am really proud of the response of Foreign Service officers, 
and if I may just give you one illustration of that. I have 
now, with Ambassador Crocker, four people who gave up 
ambassadorships to go and serve in Iraq alongside him. And that 
is the true spirit of the Foreign Service. And I was deeply 
offended myself and deeply sorry that these people who had 
self-selected into this town hall went out of their way to my 
view cast a very bad light on the Foreign Service.
    Mr. Hunter. Thank you. And just a last question, Mr. 
Chairman. We have had a battle over the years in this committee 
with respect to the funding. A lot of us have seen this--the 
train and equip programs as a funding shift from a legitimate 
State duty to the Department of Defense. Both agencies now 
participate in shaping these programs that we have discussed. 
But as I understand it, DOD is footing the bill. Is that right, 
Secretary Gates?
    Secretary Gates. Yes, sir.
    Mr. Hunter. Do you see any justification for sharing that 
burden with State rather than DOD taking the entire burden?
    Secretary Gates. Well, first of all, on 1206, the projects 
put forward in 1206 emanate entirely from our combatant 
commands. We coordinate them with State and with the ambassador 
in the country where they are going to be applied. But these 
are needs identified by combatant commanders in a military 
context and what I would call phase zero of our war planning 
and contingency planning, and that is before hostilities break 
out, what you do to try and empower those that are your friends 
to try and keep the problem under control.
    So I think that is entirely military, ought to be entirely 
within the framework of the Department of Defense. Similarly, 
with 1207, as I say, we see this as an asset because the 
civilians that are being deployed forward are being deployed 
forward to assist in a military situation. And so the amount of 
money that we have been talking about with 1207 is very modest 
and the projects themselves in both 1206 and 1207 are very 
small, and I might add notified to the Congress.
    So I think we are very comfortable with both of these 
programs being in the DOD budget in part because it gives us--
in part because of the origin of the requirement in both case, 
but second also because of the agility with which we can deploy 
the money.
    Mr. Hunter. Thank you. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman. Mr. Spratt, the 
gentleman from South Carolina.
    Mr. Spratt. Thank you all for your testimony. I understand 
the need for what you are proposing, but I am concerned that 
there may be as many risks as rewards in this whole process. 
Let's start with the power of the purse which is the one power 
that we have that is the source of our authority. How do we as 
Congress give up the control of this money and give maximum use 
and discretion--maximum discretion on its use and still 
maintain some oversight on a timely basis as to how it is being 
used so we can intercede or at least hold accountable those who 
are being given these funds for use. How do we wire Congress 
into this without undercutting the purpose of the program?
    Secretary Gates. Mr. Spratt, I believe that principally, as 
I understand it, each of these projects is notified to the 
committees as they are approved. So you have transparency into 
the projects and into the money and the opportunity to evaluate 
how the money has been used.
    Mr. Spratt. So you would have real-time approval--I mean, 
real-time notification following approval?
    Secretary Gates. That is my understanding of the existing 
practice.
    Mr. Spratt. Now, how do you maintain an audit trail? For 
example, if you had to go out and audit and report on all of 
the Commander's Emergency Response Program (CERP) funds used, 
would you be able to do that since the beginning of the Iraq 
engagement?
    Admiral Mullen. Mr. Spratt, I am not sure that we could do 
that to the level of detail that I think you are asking about. 
But there is a pretty--we have got controls on this in theater, 
and they have also been advanced over time in terms of their 
quality, particularly because of the amount of money that is 
involved. And because of the importance of the impact of CERP 
funds in theater particularly.
    General Petraeus now describes those funds as the 
ammunition directed toward success very specifically. So from 
the controls that we have both in our comptroller shop here in 
Washington to follow that very closely and then look at that in 
execution, I am comfortable with it that we are in good shape 
with respect to that, whether that all comes back to here or 
not, I just don't know.
    Secretary Gates. Mr. Spratt, I could just add that all of 
the 1206 projects by law comply with foreign assistance, legal 
safeguards with respect to export controls, human rights, and 
so on, and there is a 14-day prior notice to the committee.
    Mr. Spratt. What about--not just talking about how the 
money is doled out and spent, but auditing or reporting on 
results. How do you keep track of results, of what is working, 
what isn't working, what should be stopped, and what should be 
started?
    Admiral Mullen. Well, I would offer--and this is for me 
personally, anecdotal--but when I am on the ground in Iraq and 
Afghanistan and speak to commanders, the amounts we are talking 
about typically that young captains have are in the $50,000 or 
$100,000--those kind of funds. The feedback they give me very 
directly and right up through their chain of command is very, 
very positive about the impact they have and the difference 
that it makes in terms of building capacities in towns and 
cities, restoring buildings, restoring schools, projects like 
that, beyond also just souring the members of the civilian 
Concerned Local Citizens (CLC), the Sons of Iraq.
    So, from that perspective, universal feedback, when I have 
been there, is the positive impact of these kinds of funds.
    Secretary Gates. I would just add, Mr. Spratt, that, 
particularly with 1206 monies, we are looking at train and 
equip of military forces. So we will see the results of the 
money we invest either by the equipment we give them or, in the 
case of Lebanon, whether the Lebanese army is successful in 
defeating the terrorists in one of these refugee camps.
    I think that there is pretty real-time feedback because, as 
I say, principally the 1206 funds are for short-term kind of 
activities and partner enablement. So we can observe the 
improvement of the quality of the partners as a result of 
either the equipment or the training we have been giving them.
    Mr. Spratt. Just in closing, one concern is it seems to me 
a large part of what you will probably be doing involves 
recurring funding, but we have basically got ad hoc funding, a 
lot of ad hoc application of money. Once you get the thing 
started and running, they need recurring funding. Is that a 
problem? Do you see that as a problem if this is going to be 
effective across the board in various regions?
    Secretary Gates. I am not sure I understood the question, 
or heard the question.
    Mr. Spratt. I will submit it for the record. Thank you very 
much.
    The Chairman. Thank the gentleman.
    The Chairman. Mr. Everett.
    Mr. Everett. Thank you, Mr. Chairman.
    Secretary Gates, Secretary Rice, Admiral Mullen, thank you 
very much for your long service to this country and to the 
people who serve under you.
    Secretary Rice, I would like to comment on a particular 
honor you received yesterday down at Maxwell Air Force Base in 
Montgomery. You got the first-ever honorary doctorate degree 
there. This is not a small thing. This honorary doctorate 
degree at Maxwell University has been in the planning stage for 
three years. It is a singular honor.
    The core mission of Maxwell is national security and 
international relations. They teach this to our military 
officers. So I was delighted that, in recognition of your work 
in national security and international relations, you received 
this first-ever honor.
    Of course, a secondary delight to me is a fact that you are 
a native of Alabama, and I appreciate it from that standpoint.
    Secretary Rice and Secretary Gates, you answered in part 
some questions that I had intended to ask, such as what 
combatant commands and others across DOD where the State 
Department officials operate with the other commands; and I 
guess my question, since you partially answered that, is if 
conflicts arise--and I am sure there must be--how are these 
conflicts resolved?
    Secretary Gates. If they were to arise--because I am not 
aware of any that have so far--ultimately, they would be 
settled between Secretary Rice and myself. What has impressed 
me is, as these have gone along in the 16, 17 months I have 
been on the job, I can't recall any of these issues, proposed 
projects with respect to either 1206 or 1207, being in such 
dispute that it ever rose to that level.
    Mr. Everett. Secretary Rice.
    Secretary Rice. Yes, we have not had it rise to that level. 
I think we should give credit, we have very effective deputy 
level coordination between Gordon England and John Negroponte, 
and they are very often able to work out any concerns.
    Secretary Gates. Also, our bureaucracies know we don't like 
to fight with each other.
    Mr. Everett. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from Texas, Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Thank you both. Admiral, good to see you. Thank you for 
being with us today.
    I hope that maybe you can elaborate on my question a little 
bit. But, recently, a memorandum of agreement (MOA) was agreed 
between the Department of Defense and the Department of State 
regarding civilian contractors on the battlefield. Can you 
discuss which of your agencies are the lead element, how the 
guidance is being implemented, and an update on overall 
execution of the agreement?
    I go back to your statement that you made, Mr. Secretary 
Gates, where you say that, on page two, ``The Department of 
Defense would no more outsource these substantial and costly 
security requirements to a civilian agency than it would any 
other key military mission.''
    But going back to the contractors, I don't think that the 
contractors--when we have 200,000 contractors in Iraq and 
140,000 soldiers, and I think that they have left a bad taste 
in the mouth of many people. But maybe, going back, maybe you 
can elaborate as to the memorandum of agreement between both 
departments.
    Secretary Gates. Let me start.
    First of all, the memorandum was worked out principally by 
Gordon England and John Negroponte, our respective deputies, 
and it was worked out to the complete satisfaction I think 
certainly of General Petraeus and I believe also of Ambassador 
Crocker, and we fundamentally changed the way we do business 
with respect to security contractors in Iraq.
    The Multi-National Forces Iraq (MNFI) now has 
representatives in the operations center where the security 
details are deployed or where assignments are made for them to 
be deployed. We have full visibility into when the convoys are 
leaving, where they are going, and who they are carrying. 
General Petraeus and his people have the authority to stop one 
of those to deconflict it if there is something going on that 
they know about someplace else.
    So I would say that while State is still doing their own 
contracting in an operational sense, the lack of visibility 
that was part of the problem before the Blackwater incident, as 
far as General Petraeus is concerned, that problem has been 
solved, and he is quite satisfied with the arrangement that 
exists today.
    Mr. Ortiz. Madam Secretary.
    Secretary Rice. I would agree with the comments that Bob 
has just made.
    I would also say that we have some technical fixes as well 
so that we can monitor and have a record of what has gone on. 
For instance, in an incident, we have improved the capability 
of our own diplomatic security agents to be a part of the teams 
in these complex security operations.
    I think it is fair to say we could not do our work without 
security contractors. We would never be able to have enough 
diplomatic security agents, and I don't think this is really 
something the military wants to take on, which would be 
guarding civilians going, diplomatic personnel going from place 
to place.
    But I do think we have come to a good modus vivendi for 
working through the problems, and, to my knowledge, at this 
point it is a system that is much better. I must say we are 
going to have to monitor and we are going to have to get a 
report back as to how it is working because there were 
significant problems with it. And I myself hope that the 
changes that we made have fully addressed those problems, but I 
await the first full reports after several months to be certain 
that that is the case.
    Secretary Gates. I would just add, Mr. Ortiz, that I in 
fact had asked General Petraeus to give me a report after 30 or 
60 days, and I have that first report, and he was quite content 
with the way things were working.
    Mr. Ortiz. Thank you.
    Just another short question. You mentioned about the 
necessity of engaging some of the countries, surrounding 
countries. Have we started working on that, and what signals? 
You say that we need to do some engagements, but when do you 
begin to do these engagements? What signals are you waiting for 
us to go in there and engage these countries?
    Secretary Rice. I am sorry, do you mean in regards to Iraq?
    Mr. Ortiz. We are talking about countries like Syria, 
Jordan.
    Secretary Rice. The neighbors, in effect.
    Mr. Ortiz. Are we doing something now, and what signals are 
we expecting if another conflict arises before we get involved, 
before we enter negotiations or contact with those countries?
    Secretary Rice. We have, in fact, engaged and continue to 
engage Iraq's neighbors through a Neighbors Conference. We 
believe it is best to do this in a multilateral setting where 
Iraq can represent itself.
    I will, in fact, go to one of these meetings next week that 
is being held in Kuwait. It has a plan of action in terms of 
borders, refugees, security concerns. It now has a small 
steering or secretariat that works on these concerns.
    So I think Iraq's neighbors are engaged. But we thought it 
better to do it in a multilateral setting, rather than just 
bilaterally with the United States.
    Mr. Ortiz. Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Mr. Bartlett from Maryland.
    Mr. Bartlett. Thank you very much, Mr. Chairman.
    Secretary Rice, 2 years and 10 days ago, you testified 
before the Senate Foreign Relations Committee, and you made the 
following statement: ``We do have to do something about the 
energy problem. I can tell you that nothing has really taken me 
aback more as Secretary of State than that the politics of 
energy is, I will use the word, warping diplomacy around the 
world. It has given extraordinary power to some states that are 
using that power in not very good ways for the international 
system--states that would otherwise have very little power. It 
is sending some states that are growing very rapidly in an all-
out search for energy, states like China, states like India. 
That is really sending them to parts of the world where they 
have not been before, and challenging, I think, for our 
diplomacy.''
    A major headline in the New York Times this morning above 
the fold was that leaders of third-world nations are now 
complaining that our quest to relieve ourselves from some 
dependency on foreign oil in producing corn ethanol, which 
diverted land from wheat and soybeans to corn, doubled the 
price of corn, nearly doubled the price of soybeans and wheat, 
drove up the price of rice, a foreign major food of basic 
substances for poor people around the world. They were 
complaining that their people were starving because of our 
quest to relieve ourselves of some of the necessity for foreign 
oil by moving to corn ethanol.
    By the way, then oil was $61.27 a barrel. This morning, it 
was $112 a barrel, and going up.
    What would you say today about energy warping foreign 
policy, and what does this have to do with building partnership 
capacity and development of interagency process?
    Secretary Rice. Well, the interagency issue here is not 
really with the Defense Department, but with the work that we 
do with the Energy Department, the work that we do with the 
Agriculture Department. We clearly have twin problems. We have 
an energy problem, and we have a food problem. There are some 
relationships between them, Mr. Congressman.
    Obviously, we are looking hard at what element of this 
might be related to biofuels, in particular, ethanol. But we 
also think that a significant part of the food problem relates 
not from biofuels, but from simply the costs of energy in terms 
of fertilizer, in terms of transportation costs for food, and 
that that is in part maybe even a larger part of spiking the 
food crisis that we have.
    As you know, the President yesterday made available some 
emergency food assistance. I had people together yesterday to 
look at what we might be able to do in terms of the larger food 
problem that we face.
    Let me just say that one thing that would be very helpful, 
if you look at problems like transport, is that the President 
has asked for local purchase of food closer to the source. That 
would be enormously helpful. That bill is before the Congress, 
and we would very much like to see it passed.
    But as to energy, we are continuing to work on 
diversification. We are continuing to work on diversification 
both of supply and supply routes. The President is appointing a 
special envoy for energy to work with Europeans and Central 
Asians and others to see if we can improve the capacity for 
both production and supply from various sources, not relying 
simply on one element of diversification, which is biofuels.
    Mr. Bartlett. Do you believe that $110 oil is a temporary 
problem or is it an enduring problem?
    Secretary Rice. I would be well out of my depth to try and 
comment on the prospects for oil. I will just say that we know 
that we do have a growing supply problem as large economies 
like China and India come on line. But we say to suppliers all 
the time that the health of the international economy should 
also be of concern to them.
    Mr. Bartlett. The Financial Times today reported that one 
year ago Russia peaked in oil production. Do you think that is 
significant?
    Secretary Rice. That was a very interesting article, and it 
is significant. What we do know is that the lack of investment 
in Russian oil fields, many of which are aging, is causing a 
problem in the depression of production. That is something that 
I have been interested in, actually, for quite a long time, 
Congressman, even as an academic.
    Russia needs to attract investment into its oil fields and 
to its gas fields, and this is one reason that we have 
encouraged the Russian government to have a more market-
oriented, less statist approach to the attraction of foreign 
investment into its oil fields. The more transparent Russia is, 
the more rule of law there is in governing contracts, the 
better they are going to do at getting the kind of investment 
that they need to keep those fields producing.
    Mr. Bartlett. Thank you, Mr. Chairman.
    The Chairman. I would like to call on the gentleman from 
Arkansas, Dr. Snyder. I might also mention that he made the 
initial recommendation for this hearing.
    Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    Thank you all for being here today.
    As you all know, there has been a lot of churning in this 
town for the last year or two on the whole issue of interagency 
stuff, both within your agencies, within the think tanks, 
within the Congress, within the war zones. There have been 
concerns about this. Our Subcommittee on Oversight and 
Investigation for the last six or eight months has been looking 
at the PRTs, and we have a report coming out on Thursday that I 
hope you both will look and--all three of you will look at, 
Admiral Mullen--and let us know your thoughts. It is all in the 
spirit of how we might improve the kinds of on-the-ground 
activities that we all care about.
    As part of that, it really brought home to me the issue. I 
have a constituent who has served in Afghanistan, a 
veterinarian by training and is now I think winding down a year 
in Iraq. She e-mailed us some months ago, and I think her line 
was something like she sometimes thinks that there's more 
division between the different agencies of the U.S. Government 
than there is between us and the Iraqis.
    I think that really brought home that issue of here is 
somebody trying to coordinate with all the different agencies 
in the U.S. Government and finds the division is so great, 
which is why, Secretary Gates, I think you played such an 
important role in this discussion for some time. Nobody would 
have been surprised if Secretary Rice had been leading the 
charge on this, but to have the Secretary of Defense start 
talking about the need for dramatic increases in funding for 
USAID, dramatic increases in both numbers of funding for the 
State Department and Foreign Service Officers, is really 
important.
    I wanted to read a couple of sentences you had from your 
opening statement, talking about the challenges this country 
faces in national security:
    ``They,'' referring to these challenges, ``will require the 
Government to operate with unprecedented unity, agility, and 
creativity.'' I think those are important concepts for us to 
think about because I don't think we think about that.
    I think the agility part of it is very, very important. I 
think we have a long ways to go. It can't be agile when we 
fumbled so long in getting the kind of mix of people we want in 
the PRTs and are still fumbling with that. You talk about the 
will is there, but not the capability. That is not the kind of 
agility we need.
    What I wanted to ask about is the unity. You all I think 
are trying very hard to pull in harness together. I think 
General Petraeus and Ambassador Crocker are trying very hard to 
pull in harness together. But that is, in some ways, a 
personality-driven cooperation that doesn't include all the 
other agencies of the U.S. Government.
    My questions are two. First, do we need to have some kind 
of big Goldwater-Nichols-like reform come out of the Congress? 
Or is it the kind of thing that needs to be chipped away at by 
incremental stages of legislation? Do either one of you have 
any thoughts about that?
    Secretary Gates. I think in the short-term that we need to 
keep chipping away at it.
    There has been progress in a lot of areas. We talked 
earlier about cultural changes in our two departments and the 
perceived need to work together. But my fundamental premise in 
the Landon lecture that I gave at Kansas State last November is 
that we are operating under a structure that was created by the 
National Security Act of 1947 that helped us fight and win the 
Cold War, but it is not an appropriate structure for the 21st 
century.
    On a bipartisan basis and at both ends of Pennsylvania 
Avenue, people are going to have to think about how to 
restructure the national security apparatus of this government 
for the long-term in terms of new institutions and new 
capabilities, and not only new institutions, but figure out a 
way, frankly, to scrape away a lot of the barnacles that exist 
on existing legislation, such as Foreign Military Sales (FMS) 
and various other things that make them just the opposite of 
agile. They are very difficult, take a lot of time to 
implement, and so on. So there is a requirement, I think, for 
fairly dramatic change.
    Now the problem is there is often the desire, and we went 
through this when the Director of National Intelligence (DNI) 
was created, to use Goldwater-Nichols as a model. The problem 
is Goldwater-Nichols only works in the Defense Department 
because at the end of the day there is one person in charge who 
can make decisions.
    Dr. Snyder. That leads to my second question. Who is going 
to be that person in charge when you have multiple civilian 
agencies?
    I agree with you, by the way. I agree it should be 
incremental. There has been some thought that it should be in 
the National Security Council (NSC). The problem is we don't 
know what happens in the National Security Council. Who do you 
foresee would be the overriding person to head up some kind of 
interagency approach to national security?
    Secretary Gates. One of the things that President Nixon 
experimented with was super departments, where two or three 
departments basically were grouped under a single secretary. 
They still had their own secretary, but one had a lead. I am 
not sure it ever really worked.
    But the point is we have to think freshly and, like I say, 
I think short-term incremental change, but, long term, there 
needs to be some fundamental changes in the way business gets 
done. Frankly, we have led a contract for people to look at 
that on the outside and begin thinking about it. But the same 
kind of thought and analysis that went into the National 
Security Act in 1947 and into the Goldwater-Nichols Act in 
1986, I think, needs to go into how do we deal with this world 
of persistent conflict, failed and failing states, and so on 
and so forth for decades to come.
    Secretary Rice. I would draw a distinction between 
Washington and the field here. We have to remember that when 
the United States Government confronts a country, it confronts 
it, first and foremost, on the territory of that country. That 
is why you have a chief of mission. In effect, what has 
happened to our chiefs of missions is they have found 
themselves with extremely large interagency teams on the 
ground, and they are now having to find ways to coordinate 
those interagency teams on the ground because whatever we do 
back here in Washington, if it doesn't translate onto the 
ground, if the decisions aren't made on a timely basis on the 
ground, things are not going to flow properly.
    So I think one of the challenges is that the chiefs of 
mission, who are the face of the U.S. Government to foreign 
governments, are going to perhaps have to be given greater 
authority to coordinate and indeed to direct the various 
agencies that are under them in the field. They have that 
authority in theory. Sometimes they don't actually have it in 
practice.
    I think we do have to look at the chief of mission. It has 
become in some places an almost impossible task of coordinating 
massive numbers of agencies on the ground. And not just having 
the military there and having Justice there or Treasury there, 
but we are talking about the Drug Enforcement Administration 
(DEA), for instance.
    Now we have some very successful examples. Colombia has 
been a very successful example of being able to put all of 
those interagency teams together to run counterterrorism, 
counterinsurgency, counter drugs, all while helping Colombia to 
build, obviously, a budding democracy and a strong, as 
President Uribe has called it, democratic security plan for 
Colombia.
    So there are examples where this has worked. I mentioned 
Mindanao, where it has worked. But our chiefs of mission are 
challenged by the huge numbers of agencies that they are now 
overseeing.
    When it comes to Washington, I actually think you are 
probably going to have to look at the Department of State as 
that lead agency. I don't see how else--and it may be that it 
has to look more like some kind of super agencies Bob has 
talked about, but I don't see how you keep the coherence of 
foreign policy, which is more than simply building partner 
capacity. It is building partner capacity not only with 
military forces, but, for instance, building partner capacity 
to deliver health care and to deliver the AIDS programs that we 
have, to deliver education to the population. Because if a 
democratic government doesn't deliver that, pretty soon it is 
going to be out of power. So looking at the totality of what 
the U.S. Government delivers for a country is going to be 
important as we think about this national security perspective.
    If I may just go to the question of chipping away. I am 
actually a big fan of chipping away, because I will just 
repeat, I think we have gotten some real innovations out of 
this last period. PRTs are one. 1206 authority is another. The 
civilian stabilization initiative is another.
    I might just note that while we now look back in retrospect 
at the National Security Act of 1947 as having been created out 
of whole cloth, it was actually created out of pieces that came 
out of World War II necessities. The Central Intelligence 
Agency (CIA) was the Office of Strategic Services (OSS). The 
National Security Council came out of Roosevelt's War Council.
    And so, in fact, that was also an evolutionary process, not 
a radical revolutionary process, when the 1947 Act was created. 
Institutions most often come into being that way. People look 
at a cause or a problem, they experiment with forms, and, if 
those forms are successful, they grow legs, and they become 
institutionalized.
    I think we might want to look, if you do go to this--and I 
would very much encourage both ends of Pennsylvania to do it--
but you might want to look at how the National Security Act of 
1947 actually came into being. It didn't come into being out of 
whole cloth.
    Dr. Snyder. Thank you both.
    The Chairman. And the United States Air Force came out as a 
result of the Army Air Corps.
    Mr. Jones.
    Mr. Jones. Madam Secretary, thank you very much. Secretary 
Gates, Admiral, thank you all for being here.
    Madam Secretary, I think I have listened to the questions, 
I have listened to comments about the interagencies and what we 
need to do, and programs, and everything that we want to do 
comes back to money. There is no question.
    I look at the fact that the debt of this Nation is growing 
at about $1.67 billion a day. I just started reading the book: 
The Three Trillion Dollar War. I have seen the projections of 
taking care of our injured and wounded for the next 30-35 
years. The amount of money is astronomical.
    Then I come back home to eastern North Carolina, the Third 
District. I am pumping gas. People around me are buying gas. In 
the year 2001, the gas was $1.42 for 87 octane. It is now 
$3.36, even higher in some places for the same 87 octane.
    This brings me to my point and my question. I was truly 
outraged by reading an article in USA Today, February 6 of 
2008. It says, ``Allies fall short on our aid pledges.'' I will 
read very briefly.
    ``Foreign countries have spent about $2.5 billion of the 
more than $15.8 billion they pledged during and after the 
October, 2003, conference in Madrid, according to a news report 
by the Special Inspector General for Iraq reconstruction. The 
biggest shortfall in pledges by 41 donor countries are from 
Iraq oil-rich neighbors and U.S. allies. The United States so 
far has spent $29 billion to help build Iraq, and the Inspector 
General report says Congress has approved an additional $16.5 
billion.''
    I wrote you on February 8, and I did get a response from 
Mr. Jeffrey Bergner, three pages, very nice. I appreciated the 
response. But you said through him that you also are concerned. 
You also indicated that senior U.S. officials continue to urge 
governments to follow through on these pledges.
    My question to you and a concern that I have I think on 
behalf of the people of this great Nation is that these 
countries are making a profit on that $3.37 per gallon cost of 
87 octane while our men and women are losing their legs and 
their arms. It is our responsibility as a government to take 
care of them for the next 30 years.
    I will never forget--and I am going to let you answer the 
question. I will never forget two years ago when Gene Taylor 
and I went to Walter Reed Hospital, and we happened to see a 
young man from Maine sitting in a wheelchair, and we chatted 
with him. Then his mom came in, and she looked at Gene and I, 
and she had one question. She said, I only have one question 
for you, Congressman. Is this government going to take care of 
my son 30 years from now? One of us said, ``This government 
should take care of your son.''
    But when I look at this growing debt and spending roughly 
$12 billion a month in Iraq, why can't we make the Middle East, 
the rich countries, pay their bills to this country? What are 
you doing and what can you do?
    Secretary Rice. Well, I am spending a lot of time making 
that argument, Congressman, to the countries that are Iraq's 
neighbors in particular. I might just say that the European 
Union has generally paid its pledges. I think we have to say 
that for allies who have done so.
    The problem, very often, and let me tell you what they say 
in response. Since a lot of this is project funding, they say 
that, in fact, the security environment has made it difficult 
for them to carry out the actual projects that they had 
pledged.
    We had a problem, for instance, in Afghanistan, where there 
was a Japanese pledge that they said could not be carried out. 
What we did was to take that money then and have the Army Corps 
of Engineers carry it out.
    So we are trying different means. But now that we are 
seeing an improved security situation in Iraq, I am going to 
redouble my efforts and we are all going to redouble efforts to 
make sure they are making good on those program pledges. I will 
go to a Neighbors Meeting on the 22nd of this month, and I will 
make the argument, and I will make it on your behalf as well as 
on behalf of the American people.
    I think it is absolutely right. They need to pay their way, 
and they need to support Iraq. Not only should they support 
Iraq, but it is in their interest to do so.
    Mr. Jones. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    We will have a five-minute break. I would ask the audience 
to allow those at the witness table to repair to the anteroom. 
We will take up in five minutes. Thank you.
    [Recess.]
    The Chairman. The committee will come to order.
    Before I call on Mr. Smith, Secretary Gates, in a matter 
not directly related to this hearing but I want to raise with 
you today, to be followed with a letter, but I just thought I 
would mention it to you.
    At the February 6 budget hearing the committee held with 
you and Admiral Mullen, Mr. McHugh asked how are you going to 
approach stopping the military-to-civilian conversions. Ms. 
Jonas, your comptroller, responded that we will clearly work 
with the Congress to address those. But five days ago, on April 
10, our committee received the Administration's proposal to 
repeal the same military-to-civilian conversions.
    I will send you a letter on it, but I wanted to give you a 
heads-up and not ask you about it, because that doesn't relate 
to this hearing.
    Mr. Smith, please.
    Mr. Smith. Thank you, Mr. Chairman.
    I want to follow up on what Dr. Snyder was talking about on 
coordination, how we sort of bring all of this together, 
because we are dealing with a big, comprehensive, ideological 
struggle that has many components and involves many different 
countries. To some degree, it is like a counterinsurgency in 
several dozen different countries.
    I visited in the southern Philippines to see what they were 
doing down there. So there is a huge development piece, 
certainly a military piece, and the challenge is how do we 
bring all of that together in a coordinated fashion. I think 
this hearing is very appropriate.
    The one idea I wanted to sort of float by and see what both 
of you thought is we have sort of coordinated our efforts on 
the tracking of high-value targets, and so did the direct-
action piece of this big comprehensive struggle, I think in a 
very good way. And there is many different pieces to that as 
well.
    But we have used the National Counterterrorism Center. To 
some extent, we have used other pieces that we won't get into. 
Some of it is top secret.
    Secretary Gates, you know how they coordinate that. They 
really did a good job by picking out some people to coordinate 
it and then getting all the key players to buy in and 
participate. In that instance, it is dozen of different 
agencies as well. Granted, this one pulls in even more. I think 
of that as a model. On a daily basis, all of those different 
players get briefed and sort of know what is going on in the 
high-value-target world.
    What I have always thought is that we need the same thing 
for the broader strategy, for strategic communications, for 
development, to sort of have a picture every day of the several 
dozen different countries that this struggle is playing out in 
and what is happening and who is involved in what and how those 
resources are divided up. We just need somebody to coordinate 
that.
    I am curious again to follow up on how you think that would 
play out, because I think I kind of agree with Secretary Rice 
that logically that fits in the State Department. When you are 
talking about foreign aid development, diplomacy, all of the 
different pieces there, it seems to have more pieces that are 
in their area and then some that cross over.
    The problem is, to be blunt about it, Secretary Gates has 
the money. You mentioned the 1990's and how we sort of did our 
peace dividend. After 9/11, we clearly responded militarily. 
You can look at the Defense Department budget from September 
12, 2001, forward, and you can see we got the threat and 
responded. It has not happened in the State Department on a 
development of diplomacy level.
    I guess the two questions are, one, what level of funds do 
we need to do? Is it realistic to say now we are going to make 
that commitment on these other pieces, in addition to the 
military piece? In factoring that in, how do you see who you 
would pick to coordinate? I guess I would be curious if 
Secretary Gates thinks my analogy to what we are doing on the 
direct-action piece works at all in terms of a coordination 
model.
    Secretary Rice. Thank you.
    First of all, on budget resources, obviously, I would love 
to have the Defense Department budget. It is not going to 
happen. We recognize that.
    Mr. Smith. Even 10 percent of it, maybe.
    Secretary Rice. I think I don't even have 10 percent of it. 
That is right.
    But we have had a significant increase in foreign 
assistance. The President has tripled it worldwide, quadrupled 
it in Africa, doubled it in Latin America. And recipients, 
obviously, like Afghanistan have been significant--and Iraq, 
for that matter--significant recipients of counterinsurgency 
foreign assistance, where we are going into an area and 
building after an area has been cleared of terrorists. So we 
have increased it.
    What we have not kept pace with, frankly, is the platform 
for the State Department in terms of people. We have spent a 
lot of money on buildings, but we really have allowed the 
numbers--now Secretary Powell had a diplomatic readiness 
initiative, which added a significant number of officers. They 
were almost immediately swallowed up by the big efforts that we 
have in Afghanistan and Iraq.
    Mr. Smith. If I may, I think that is why a lot of this 
stuff has fallen to DOD. My subcommittee has jurisdiction over 
the Special Operations Command, and a lot of those soldiers got 
involved in some of this stuff we are talking about because, 
again, they had the people.
    Secretary Rice. I think that is exactly right. It is why I 
think one of the answers, again, is to go to a kind of civilian 
response corps, which would be, in effect, a kind of equivalent 
of the Reservists or National Guard, that you could call people 
up as you need them, rather than trying to keep them on the 
payroll. But we also have to increase the pure numbers of 
serving Foreign Service Officers, serving USAID officers.
    I think it is an interesting question. I was in the NSC 
when we created the National Counterterrorism Center, and it is 
an important innovation. I think the problem in kind of taking 
it as a model, for instance, for how we might engage, let's 
say, the country of Pakistan or the country of the Philippines 
is it is such a complex set of calculations. It is not just the 
counterinsurgency piece. It has to build out to building 
government capacity, for instance, to deal with the problems 
that are causing the rise of the counterinsurgency, whether 
those are governance issues or justice issues or poverty 
issues.
    So I suspect that what you are going to find is that that 
does have to be done by the chief of mission and by the 
Department of State. I have found that the National Security 
Council can play that role at the strategic level of policy 
guidance in an effective way. The minute it tries to get down 
into a more operational level, it gets into trouble.
    I have been National Security Advisor. Bob has been Deputy 
National Security Advisor. You must, I think, keep the 
authority and responsibility in the same place, and because the 
National Security Advisor is not a confirmed officer, does not 
have the authority, and therefore does not have the 
accountability for those programs, I think it would be a 
mistake to have more than a kind of policy coordinating role in 
the NSC. But I would suggest that is where that policy 
coordination really ought to be.
    Mr. Spratt [presiding]. Mr. Saxton.
    Mr. Saxton. Thank you, Mr. Chairman.
    Secretary Rice, Secretary Gates, Admiral Mullen, thank you 
for being with us today. We all appreciate it very much.
    This is a complex issue, as we all know, particularly given 
the lay-down of our bureaucracy, if you will.
    When General Caldwell, Commander of the Combined Arms 
Center at Fort Leavenworth, was here last month, he mentioned 
that he was having some difficulty in getting civilians from 
the interagency community to take part in the command and staff 
college training opportunities that existed. He offered to pay 
all expenses, and still he couldn't sway the civilians or the 
organizations that they work for to train with future leaders 
of the Armed Forces.
    Assuming that that would be good, I assume it would be 
good, if one feature is to reform how agencies educate, train, 
assign, and promote their personnel, then what incentives can 
departments and agencies offer career professionals to pursue 
interagency education, training, and interagency experience?
    Secretary Rice. First of all, I am a big supporter of these 
kinds of opportunities. What we have lacked, at least in the 
Department of State, is a people for training float, if you 
will. We run people through so fast just to get them back out 
to the field so that we can fill the positions that we have 
got, that we really don't have the time to spare them for 
training. No good organization lives with the fact that you 
really can't have people on a training cycle of the kind that 
gives them interagency training or proper language training.
    A significant portion of the new positions that the 
President is requesting is so we can create a training float so 
that people can actually spend the time training. Right now, I 
don't even have enough people to fill the positions. I am at 
some 10 percent freeze on positions, 10 percent unfilled 
positions frozen out in the field. That is after having pulled 
every single diplomat I can out of Europe to go someplace else.
    I think this is, again, evidence of a too-small civilian 
capacity to really engage in the interagency piece, the 
language training, the proper training that is necessary. I 
know that it is something that is very much valued by our 
officers. They love to go and do this kind of training. We just 
need to be able to provide them the opportunities.
    Mr. Saxton. Thank you, Madam Secretary. I am sure that what 
you say is very true, and I guess there are many of us here who 
think not only does State have too few people that give us too 
few capabilities, but, as you know, we are building additional 
capacity in the armed services as well. So it is a new world, a 
new era, and we need to make changes to accommodate our 
capabilities to those new demands. So thank you very much.
    Thank you, Mr. Chairman.
    Mr. Spratt. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman, and thank you all for 
being before us today.
    Secretary Gates, in your written testimony you cite two 
commands as examples of positive changes toward effective 
interagency cooperation: U.S. Africa Command (AFRICOM) and U.S. 
Southern Command (SOUTHCOM). I think that it is great that we 
are trying to do that. My question is, clearly, that SOUTHCOM 
and AFRICOM are areas of responsibility that aren't facing the 
type of conflict that we have in U.S. Central Command 
(CENTCOM). Are there plans in place to implement this 
interagency structure in CENTCOM? And, if so, what sort of 
timeframe do you have for that and what challenges do you think 
you will see when you are trying to put them in a command that 
has a war in it? And what do we need to do in order to make 
sure that we have this in a place like CENTCOM, and are there 
other commands where you want to place that type of interagency 
team in place?
    Secretary Gates. Let me say a word and then ask Admiral 
Mullen to join.
    Part of the problem that we face ties right in with the 
last question that Secretary Rice answered, and that is we have 
a significant need for civilian representation, interagency 
representation in AFRICOM above all, but also in SOUTHCOM. Part 
of the challenge that we are facing is that the other agencies 
just don't have the spare people to give us.
    Now the deputy--one of the two deputy commanders of AFRICOM 
will be a State Department ambassador. This is a new model. So 
I would say the need first is to try and fill the positions in 
AFRICOM.
    Southern Command has, over a period of years, developed a 
large interagency presence, but there is a real squeeze in 
terms of the availability of people. All of our commands are 
becoming more interagency. But I would tell you that our 
priority right now is on AFRICOM and then on SOUTHCOM.
    But let me ask Admiral Mullen.
    Admiral Mullen. Ma'am, the two commands you specifically 
spoke of, how we would do this in Central Command and, in fact, 
in both Iraq and Afghanistan we have put an awful lot of people 
from other agencies out there, not the capacity we would like, 
and that really is in phase four of what we call sort of the 
various phases we go through in our operations, by and large, 
stabilization.
    So it is implemented there, but not to the degree that we 
are restructuring or standing up AFRICOM and in fact changing 
Southern Command, with a lot of the same kinds of activities 
except it is preventive. It is the phase zero kinds of things, 
and they are not exactly the same kinds of things that we do. 
But, clearly, that is the kind of sea change that is going on 
right now that we think is going to be very representative of 
the future.
    The other command that we have done an awful lot of 
interagency work and stood up is in Northern Command (NORTHCOM) 
in Colorado Springs, where that is inherently interagent, 
almost immediately as we stood up, because of its mission. I 
think it is representative of where we need to be now and also 
where we need to go in the future.
    There was a question on career paths earlier. How do you 
provide the education? Leaders have to incentivize this for 
people to not just come and do it but also succeed. All that I 
think speaks to the kinds of changes that have to occur across 
many areas, including how we attract and retain our people 
across the entirety of government.
    Ms. Sanchez. Thank you, Admiral.
    Just in the last few minutes that I have, I sent you a 
letter, Secretary Gates, about the incidents with female 
contractors who are sexually assaulted in Iraq. You sent me 
back a letter; and in it you said you are in the process of 
working with our commanders to improve the necessary 
implementation procedures for the Uniform Code of Military 
Justice (UCMJ) application, et cetera. You said there were 
still some significant gaps and inconsistencies.
    Can you tell me what are the inconsistencies and 
significant gaps and how do you plan to correct them? Or do we 
as a Congress have to help in order to make sure that we have 
some accountability to our women contractors in Iraq who are 
being raped by contractors, such as where we had the KBR 
contractors do it to Jamie Leigh Jones?
    Secretary Gates. I don't know the date of the letter that I 
sent. I have subsequently sent out to the commanders around the 
world, including to General Petraeus, a memorandum telling them 
how to proceed with the use of the Uniform Code of Military 
Justice against civilian contractors working for the United 
States Government and that they have the authority under the 
law that you all gave us a couple of years ago to carry out a 
criminal investigation against a civilian and to bring charges 
against a civilian contractor. And, in fact, I think there has 
been one such arrest just in the last two or three weeks.
    What we don't know is how the courts are going to look at 
bringing a civilian in under the Uniform Code of Military 
Justice, and so the gap that exists is on the other law that is 
more apt. And I should say we also give the Justice Department 
the opportunity to intervene on one of these cases and take it 
away from the commander if they choose to prosecute.
    The concerns I think that we have is the McGee law has some 
gaps in it. It is the one where there probably needs to be a 
further examination by the Congress to see if there are gaps 
where it can be applied more easily to contractors.
    Ms. Sanchez. Thank you, Mr. Secretary. Maybe we can work 
together. We want to make sure we have this cover for when this 
type of situation happens.
    I thank the chairman for indulging the extra minutes.
    The Chairman [presiding]. Thank you.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Let me, first of all, thank all three of you for the jobs 
that you do. We know you have very difficult jobs, and you do 
they them very, very well.
    There is a legitimate argument to be made that in Congress 
we sometimes do not have the capacity, maybe the will to focus 
in and laser on priorities as quickly as we need to do and 
maybe get the funding there where it ought to be. A good 
example, we talk about readiness, and we still bottle up a 
supplemental and delay the passage of that.
    With all of its blemishes and all of its warts, the 
processes that we go through does at least end up with a 
situation where we are voting on funding and we have a degree 
of openness about where that funding is. Oftentimes, we worry 
about shifting within agencies from one program to the other, 
which might be different than what we establish.
    So when we look at interagency reform and we look at things 
that we want to do, most of us support very strongly 
information on planning coordination. But when we start 
shifting the funding, it at least raises some questions, and 
the three questions that I have to throw out to any of you this 
morning is this:
    Should there be any limit on the amount of funding that we 
can switch from DOD to the Department of State? If so, what is 
that monetary limit and why should we have the limit, one.
    Number two, we consistently hear testimony that it is not 
just State and DOD, but other agencies that we need to be 
involved as well in what we do, and should we be able to shift 
that funding on an equal basis between all of those agencies?
    Then the third thing is, we mentioned the fact that our 
combatant commanders are the ones that are basically going to 
make these calls. We know that they are appointed by the 
President, confirmed by the Senate. But the question is, 
historically, when they have come in to us with requirements 
and the requirements that they have talked about, they have 
been military requirements. How do they get their hands around 
the requirements that they are going to be recommending now? 
What definition do we give them to help structure the requests 
that they are making when they are talking about requirement 
needs now?
    Secretary Gates. Let me tackle the first couple and ask 
Admiral Mullen to take on the third.
    First of all, it certainly is my impression that there are 
very clear limits on the resources that can be transferred from 
the Defense Department to the State Department. As an example, 
under 1206, as I indicated earlier, any of those transfers and 
those specific projects have to be notified 14 days in advance 
to the Congress so you all have complete visibility into the 
transfer that is being made and the amount of money that is 
being made and why it is being made.
    Mr. Forbes. Just because that notice comes here doesn't 
give us the same play over it that we would have in a 
particular authorization bill or something that would be 
coming.
    Secretary Gates. But it does give the Members and the 
staff, above all, complete visibility into the process in terms 
of accountability and an ability to raise questions about those 
things if they have those questions. We get those questions all 
the time.
    So I think that there are limits. I think we can't 
transfer--I am no expert in this, but I don't think we can 
transfer money to any other department without notification to 
the Congress and going through a significant process up here. 
So I think that is really--just as we are coming up here for a 
request in 1207 for the authority to be able to transfer up to 
$200 million to the State Department for 1207 and for $750 
million authority for 1206, those are specific caps, and you 
would know under those caps what those transfers were being 
made for.
    So it seems to me that, in terms of your responsibility, 
you have the information to hold us accountable.
    Admiral.
    Admiral Mullen. As far as the requirements themselves are 
concerned, what the combatant commanders have seen is the value 
of this kind of 1206 building partnership capacity, military 
training and equipping; and it has spanned the very different 
kinds of capabilities: tactical communications, maritime 
security, night vision kind of flying opportunities. The 
Secretary mentioned that in Pakistan. The full spectrum.
    They see also the agility with this funding, to be able to 
make it happen very quickly, and that is, I think, very 
encouraging to those that they are engaged with routinely. 
Combatant commanders have historically come in for a vast array 
of requirements. Typically, they never get the full list, even 
as they see it. That is the case even now in 1206. As it has 
been asked to be expanded from I think $500 million to $750 
million, the combatant commanders could actually come in and 
see other areas of application to spend more money.
    So I think to a certain degree we are in a growth timeframe 
because they see the value of it. I trust their judgment in 
this because they are in the field, they are engaged with these 
countries routinely, and they see where those needs are. It is 
in that building and the speed with which they can do it where 
this kind of money is so valuable.
    So I am comfortable with the requirements process. It is 
still early. We will go through that. They do that fairly 
rigorously. It depends on what part of the world we are talking 
about. But I am comfortable with what they do in the country, 
as well as with their staffs, as far as validating these 
requirements.
    The Chairman. I thank the gentleman.
    The gentlelady from California, Ms. Tauscher.
    Ms. Tauscher. Thank you very much, Mr. Chairman.
    Secretary Rice, Secretary Gates, Admiral Mullen, thank you 
very much for being here. And thank you to the men and women 
that you serve with all around the world.
    I guess the biggest surprise for me after September 11, 
looking at a new, unconventional world of where asymmetrical 
threats and places of chaos are such a threat to us, is how 
labor-intensive it is. We came out of the 20th century 
believing that we had invested in smart systems and smart 
platforms and lots of things, and the truth is it is about 
people. And I think that what we are finding is that we don't 
have enough people across the board.
    We clearly have a readiness issue in our military. We need 
to have more people. Madam Secretary, you don't have enough 
people, certainly, to represent us both diplomatically and with 
programs. And then, across the board, we look like we don't 
have enough people.
    I will never forget co-chairing with my colleague from Ohio 
the Congressional Defense Review (CDR) that was mirroring the 
Quadrennial Defense Review (QDR) a couple of years ago, and 
combatant commander after combatant commander would come in and 
say, ``I have done everything I am meant to do.'' We have done 
a very good job in the military, but where are the civilians? 
Where are the people from the Agriculture Department that are 
meant to come and talk to the Afghanis and tell them, ``Not 
poppies; winter wheat''?
    So I guess my question is this: People are expensive. They 
are very expensive. What are we doing to attract and retain the 
right kind of people?
    What are we doing to make sure that they understand that, 
very much like in the old joint world, Admiral Mullen, before 
the joint world became certified as the way to be promoted, 
what are we doing to tell the newer people that we are hiring 
and middle-management people that the way to go is to make this 
interagency process work, that this is the way to get promoted, 
this is the way to be a leader, this is the way to be a 
Secretary?
    And how are we building the training programs and allowing 
people to go into those systems in a way that gives them the 
kind of robust training and the tools that they need to go 
forward in this very labor-intensive environment?
    Secretary Gates. I will begin, and then Secretary Rice can 
pick up.
    I was smiling because when I first got an interagency 
detail from Central Intelligence Agency (CIA) to the National 
Security Council (NSC) in 1974, I was told there probably 
wouldn't be a job for me in CIA when I came back. It turned out 
there was, but just barely.
    And the reality is, until the real joint world came along 
in the military--or I would say the rest of the government, to 
a large extent, has been like the military before Goldwater-
Nichols, in terms of the attitude toward joint duty. If you are 
not here in the trench, you are not working. If you are over 
there working for somebody else's agency, you are off our 
payroll, we are not interested, and you are not going to get 
promoted besides.
    One of the things that I did when I was Director of CIA--
well, when I headed the analytical side, I said, if you don't 
have a rotation in a policy agency, you can't be promoted to a 
GS-15, because you are over here doing intelligence and you 
don't have a clue how it is used in the interagency process. 
And I tried to put that in place for the clandestine service 
when I was Director. That lasted until the day after I left 
office--actually, maybe the hour.
    But the point is I think there really has been a sea change 
in the last 15 years. And I think that most people understand 
that their futures--they look at the military, and they look at 
the number of positions--for example, that State Department 
officers are serving in the combatant commands (COCOMs) and 
places like that--and I think at least in these two 
Departments, there is a real understanding of that and the 
culture has changed. I would be surprised if it has changed 
anything like that in the other Departments--in most of the 
other Departments of Government.
    Secretary Rice. I would agree with that.
    I think that at State there is an additional reason for 
people to want to have some kind of interagency experience. It 
has always been the case with the National Security Council, 
increasingly with the Defense Department. But if you are going 
to be a deputy chief of mission (DCM) or an ambassador, you 
better understand the interagency. Because, as I said, most of 
our embassies now, when I go out to do an embassy meet-and-
greet, as we call it, and I look around, some significant 
portion of those people in the audience are actually in uniform 
or they are DEA agents or perhaps Federal Bureau of 
Investigation (FBI) agents or perhaps from the Justice 
Department. And so learning to manage an interagency process 
really means understanding the perspective of having been 
outside of your own department.
    What we really have to work on is really two elements. One, 
better training for people. For instance, the PRTs now train 
together for six weeks or so. That is really good. And people 
who come back from those experiences have a different view of 
interagency work.
    The other piece, though, is that we need people from 
different perspectives and different backgrounds. And so the 
State Department is going to need to look at mid-career, entry-
level people. It is great to get the Foreign Service officers 
(FSOs), 25, just out. But people who have had experiences in 
business, people who have had experiences in the military, 
people who have had experiences in nongovernmental 
organizations, we are trying to recruit some of those mid-
career people into the Foreign Service.
    Ms. Tauscher. Thank you, Mr. Chairman.
    The Chairman. Admiral Mullen.
    Admiral Mullen. Just one brief comment, Mr. Chairman, on 
this.
    I really think that the people issue is the biggest issue 
we have in DOD long-term--how are we going to recruit them, how 
are we going to retain them? They are the most important 
resource, and they are becoming more and more expensive. And we 
can have the greatest missions in the world and the greatest 
stuff in the world, and it is not going to work without them. 
And that is one we have to tackle and, I think, be predictive 
about, as opposed to reactive about, which we aren't very good 
at.
    And I was sitting, actually, down in Key West not too long 
ago with a young lady from an agency who has been down there 
assigned to the task force down there, and she had come from 
one of the headquarters here. And she looked at me at the end--
she had been there about a year--and she said, ``We should have 
done this 10 years ago.'' And she was in an agency that she 
knows, 10 years ago, wasn't talking to anybody. And that was a 
real message for me and, I think, indicative of what we have to 
do.
    The Chairman. Thank you.
    Before I call on Mr. Wilson, let me ask a very quick 
question. And Admiral Mullen, I know, will recall the 
beginnings of Goldwater-Nichols, how, number one, it was fought 
by those with four stars on their shoulders within the Pentagon 
and then how some services dragged their feet as best they 
could, but it is finally the culture within the military. But 
it was forced upon the military by the Congress of the United 
States. And, to the credit of the military, it is working and 
working very, very well, but it took a while to do.
    So let me translate that into, should we come up with, at 
the end of the day, whether it be piece by piece or as a solid 
piece of legislation that does basically the same thing, that 
says, ``Thou shalt do interagency work''? How will the 
cultures--plural--accept this? Would this be a replay of the 
various services as a respondent to Goldwater-Nichols, or is 
there a difference?
    Either one or both of you.
    Secretary Rice. Mr. Chairman, I believe that interagency 
work is essential, and I think it is beginning to permeate our 
culture, at least at State, that it is essential.
    And as I said to Representative Tauscher, if you are out in 
an embassy--I think we tend to think of Washington, but our 
people mostly serve abroad. And if you are out in an embassy, 
you are in an interagency environment. If you are a Deputy 
Chief of Mission, you are in an interagency environment. And so 
I think what we have to do is to capture that experience.
    But if we are going to have people here in Washington who 
can go to the Command and General Staff College and to other 
places, we are going to have to be able to provide us with the 
training float to spare those people to go for that training.
    But I do believe that a sense of the importance of the 
interagency is there in our culture. You may not get it in some 
of the other agencies; that may take more time. But I sense it, 
and I believe it is there in State.
    The Chairman. Good. Thank you.
    Secretary Gates, do you have any comments?
    Secretary Gates. Well, I am torn between incentives and 
disincentives. In other words, frankly, when I was at CIA, the 
leverage that I used to cause people to get interagency 
experience was basically to tell them that they wouldn't be 
promoted beyond a certain level if they didn't have it. It is 
not unlike the promotion process in the military where, if you 
don't have joint experience, there is only so far you can go, 
where it is a prerequisite for obtaining certain ranks and 
positions. So that is one aspect.
    The other is to try to figure out, which I think--I think 
the incentive part of it is in some ways more complicated, in 
terms of how you cause people to see it in their own advantage 
to look for these opportunities, and so you build a culture 
where people are looking for the joint experience or the 
interagency experience.
    But I think for the Congress even to weigh in almost 
philosophically about the importance of interagency experience 
could have a salutary effect.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, Madam Secretary and Mr. Secretary, Admiral, thank you 
very much for being here today.
    I believe that we are in a global war on terrorism, as you 
all have identified, a global counterinsurgency. To protect 
American families, it is just crucial that we deny the 
terrorists the abilities to create breeding grounds for 
terrorism or safe havens. And, working together, I believe you 
are making quite a difference.
    And, Madam Secretary, in particular, I want you to know how 
grateful I am for the work of the United States Agency for 
International Development (USAID). I never cease to be amazed. 
Their annual report--I wish the American people could see, in 
dozens of countries all over the world, where there is a 
natural disaster, USAID is there right away, providing aid, 
helping countries provide infrastructure, working as we see at 
the country briefs. The dedicated people you have in State 
Department, it would warm your heart how much they care about 
the people that they are serving, in working with the Peace 
Corps.
    I have seen it firsthand. In 2005, I was in Muzaffarabad. 
And, Mr. Secretary, it was extraordinary. I ran into a 
constituent of mine, a young Pakistani-American corporal in the 
Marine Corps, and they were up there providing care for persons 
who had been in the earthquake in northern Pakistan. And with 
his perfect Urdu, he was able to truly project America as we 
know it, a country that cares about people around the world.
    And then I was able to visit in Darfur, in Sudan, in the 
USAID tents, the food being provided. Additionally I have seen 
the PRTs working together in Jalalabad and also at Khost. And I 
was most recently at Asadabad and with a young Navy lieutenant. 
He was talking about building a bridge for the people of 
Asadabad. You would think he was talking about the birth of his 
own child, he was so excited and so proud to show us what they 
were doing.
    And I have seen also, in Iraq, the Commanders' Emergency 
Response Program (CERP) activities in Mosul. One of my sons 
served for a year in Iraq, and his greatest pride, indeed, was 
to provide water tanks to the villages, to help in a small way 
to work with the project to distribute 2 million bookbags to 
the children of Iraq, additionally with medical clinics.
    So I see progress all around.
    But I do share the concern of Congressman Jones that we 
have countries in the neighborhood of Iraq, many of them very, 
very wealthy, and it is in their interest, Madam Secretary, as 
you indicated, that they truly deliver on the commitments they 
have made but even more so.
    So, again, how is this going to be brought to their 
attention?
    Secretary Rice. Well, it is going to be brought to their 
attention by continuously bringing it to their attention, 
Congressman. This is actually a subject for discussion every 
time I am with those countries.
    And as the security environment improves, there will not 
be, perhaps, the concern that they cannot carry out the 
projects that they need to carry out.
    Frankly, the Iraqis are quite capable of funding a lot of 
their own activities, and I think the reconstruction assistance 
now is about 10 to 1, them to us. But it doesn't mean, for 
instance, they wouldn't be helped tremendously by debt relief 
by some of these countries. All of the Paris Club countries--
the United States, France, Britain, now Russia--are in a 
position of discounting that debt. But we haven't gotten the 
same response from some of the countries in the region.
    So those are the kinds of things that we go after them 
about all the time. It is most in their interest. That is why 
we have a neighbors conference, and I will be delivering the 
message again. And thank you; I can deliver the message 
directly from the Congress of the United States when I go to 
Kuwait.
    Mr. Wilson. Well, it is good business and good security for 
them.
    And, Mr. Secretary, the foreign military financing (FMF) 
programs, to me, can be so helpful. I was in Ghana and so 
impressed by the developing military there and our association.
    Are there other examples of progress in Africa?
    Secretary Gates. Well, I think FMF is a good example of a 
longer-term solution to the kinds of issues that we are talking 
about with 1206 and being able to do it in the short-term. And 
we have had some experience using 1206 in Africa and providing 
some training and so on, and I think it is a great short-term, 
initial way to get into the programs with some of these folks.
    Mr. Wilson. And is it helping them also with the latest 
equipment, so that it can be interrelated with other----
    Secretary Gates. Generally, the kinds of things that we 
provide are pretty--you know, are small boats, are radios, some 
trucks and things like that. It is pretty simple stuff that 
they need--and training and professionalizing them. Those are 
really the needs that most of these countries have.
    Mr. Wilson. Thank you.
    Secretary Gates. Even though they would all like to have F-
22s.
    The Chairman. Thank you.
    The gentleman from New Jersey, Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman. Good morning.
    Madam Secretary, Mr. Secretary, Admiral, thank you for your 
service. Thank you for your time this morning.
    Two states that pose significant issues for our country 
today for different reasons have a common problem in their 
recent history with our country, and that is Iran and Pakistan.
    Frankly, the standing of the American people and the 
American image in both countries is very different, but to the 
extent that there is disfavor toward the United States in each 
country, one of the reasons is our association with unpopular 
oppressive rulers. There are Pakistanis who have negative 
opinions of the United States because of the real and perceived 
actions by General Musharraf. And although I understand our 
standing within Iran is rather good, there are still some 
Iranians who are bitter toward the United States because of our 
support for the Shah over the decades.
    In that context, Mr. Secretary Gates, I want to ask about 
your recommendation of expanding section 1206 coverage beyond 
military forces to include security forces.
    Now, I read this as saying your intent is to be sure that 
we bring peace and stability to troubled places. I don't read a 
word in there that would talk about anything offensive or 
oppressive to the citizens of those countries.
    But what kind of criteria or safeguards do you think we 
should consider putting in to limit the use of section 1206 
coverage for something other than military forces? In other 
words, aren't we setting up the possibility that we will create 
in other places the kind of ill will we have created toward 
ourselves in the two states I mentioned, because we are seen as 
subsidizing and encouraging oppressive behavior toward people 
of those countries?
    Secretary Gates. I think that the reason for broadening it 
beyond military to security services is simply because many of 
the countries that we work with and that we potentially will 
work with organize themselves differently. So that in Liberia, 
for example, the Coast Guard that is helping us with maritime 
surveillance and so on is not a part of their military. In 
Pakistan, the Frontier Corps is not a part of the military. So 
it is really those kinds of institutions that we are talking 
about.
    And, as I say, there is a notification process in terms of 
accountability where you all can see who we are giving this 
money to and what we are doing. And they also have to meet the 
human rights requirement.
    Mr. Andrews. I appreciate that, although let's posit this 
circumstance. Let's posit an emerging growing state that has an 
orthodox military structure and an interior ministry. And let's 
say that the interior ministry is dominated by a minority, 
religious or sectarian group and has some problems with the 
majority group.
    Should there be substantive criteria, not simply 
notification but substantive criteria, before we would use 1206 
coverage for that interior ministry?
    Secretary Rice. Well, I think, Congressman, we have tried--
first of all, do have the human rights vetting provisions that 
we use to make certain or to attempt to make certain that the 
equipment and training that the United States does would not be 
used for internal repression in one way or another. And we have 
not always been able to assure it. Certainly there have been 
some cases. But we have not been shy about cutting off 
assistance if those human rights abuses are found, even down to 
a unit level, in some cases.
    We are not talking about standard police forces here. I 
think we are talking more about forces, paramilitary forces in 
some cases, that may come into being in terms of 
counterterrorism operations.
    But I wouldn't know how to establish criteria that are 
universal. I think this is really going to be more of a case 
of----
    Mr. Andrews. Madam Secretary, I don't know that they need 
to be universal. And, frankly, my question is more of an 
institutional separation-of-powers question than it is about 
any particular case.
    We are, I think justifiably, reluctant to say that the 
Congress can be notified that these funds are going to be used 
for interior ministries but not have some substantive criteria 
to understand whether that human rights vetting process you 
talked about is in fact happening, how thorough it is, how 
credible it is.
    I don't envy the job of anyone who had to deal with Iran in 
the 1960's and the 1970's or Pakistan in these times. It is 
difficult. But I do understand that there is a record here that 
shows that our position and therefore our security is sometimes 
weakened and jeopardized because of the use of oppression by 
people that we have associated with or funded.
    It is a difficult problem, but I do think it is one the 
Congress needs to play a substantive role and not simply an 
advisory one.
    I see my time has expired. I thank you.
    The Chairman. I thank the gentleman.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank all of you for being here, and especially the 
folks that go out and put themselves on the line for our 
freedom. I always want to express gratitude for that.
    Mr. Chairman, the purpose of the meeting called here was to 
hear testimony on efforts to build the security capacity of 
partner nations in the ongoing development of the interagency 
process. And I think the fact that the divergency that is 
represented on the dais of the panel here is an indication that 
development of the interagency process is occurring.
    So I have just one question that I hope all three of you 
can address, related to the security capacity of partner 
nations.
    Secretary Rice, you stated on page 12 of your testimony 
that, quote, ``We are working closely with the Department of 
Defense on a number of strategic policy issues. The Gulf 
Security Dialogue integrates foreign policy and military 
dimensions with our allies and partners in the Gulf.''
    And, Madam Secretary, I wanted to specifically talk about 
Saudi Arabia. And I want you to know, this is not a catch-you 
question. I believe there is an answer--some answers to it, but 
it is a paradox to me, and that is our relationship with Saudi 
Arabia.
    First of all, the government of Saudi Arabia is failing in 
some areas related to the prevention of terrorist financing. 
They are one of the largest financiers of terrorism in the 
world. And they continue to indoctrinate their students with 
anti-Western and anti-Israeli beliefs in their textbooks 
throughout the education system. They remain intolerant to 
religions other than Sunni Islam, and they forbid political 
dissent. And moreover, their borders, sharing 500 miles of 
border with Iran, are a particular problem, given that they are 
not doing well in securing their border enough to do anything 
to help in the effort of stabilizing Iran.
    And, of course, we have just sold Saudi Arabia some 
significant equipment, ostensibly to help them counter Iran, 
but in their statements, they don't suggest that that is their 
intent with the equipment. And I don't want to question any one 
of these things in particular, but, all together, there seems 
to be a general indication that Saudi Arabia has not 
demonstrated to the United States their desire to propagate 
freedom and tolerance like we are hoping they will do.
    And in the long-run, I guess the question really is this: 
How is our partnership with a government like Saudi Arabia 
advancing our national security objectives?
    And, Madam Secretary, if you would go first, and I hope we 
can get the other two perspectives in too.
    Secretary Rice. I think it is absolutely the case that, 
prior to 2000 and before 9/11 and really, frankly, before the 
bombings in Riyadh in May of 2002, I think that it could be 
said that Saudi Arabia was not as effective--or was not very 
effective in fighting terrorism. I think there has really been 
a change in Saudi Arabia on this fact. The government has been 
very aggressive. They have, in fact, killed a lot of al Qaeda 
operatives in Saudi Arabia. They have arrested scores more. I 
think our people would tell you we have very good 
counterterrorism cooperation.
    Now, on financing, yes, it is a more complicated picture, 
and I think there it is not so much the government as the 
inability to control certain elements that are funding through 
private sources. And we have been very--pressing them a lot on 
some of these foundations and non-governmental organizations 
(NGOs) that we believe continue to pass terrorists funding.
    But I believe that you are getting a major effort from 
Saudi Arabia. As to the regional dimension to that, though, I 
am absolutely certain that without strong defense capabilities 
for our Gulf allies, they will not be able to resist Iranian 
penetration, aggression, and the considerable spread of Iranian 
activities into the Gulf region. It is something that really 
does frighten them. And they see their own national interest as 
being linked to ours in resisting that, even if sometimes it is 
not in the rhetoric.
    But as to matters of democratization in Saudi Arabia, you 
are right, that is going to be a long course. We continue to 
hope for better. Some small things have changed, but the larger 
course of Saudi Arabia, I think, on this score is still to be 
determined.
    Mr. Franks. Thank you.
    Admiral Mullen, would you like to take a shot at it, I 
mean, from the military perspective?
    Admiral Mullen. The military-to-military engagement has 
been strong and continues strong, and it is a key part of this 
whole Gulf Security Dialogue. And I have watched the members of 
this evolve tremendously in recent years. Obviously there is 
great concern now because of the tension created by Iran. And 
that balance, I think, is needed not just in the near-term but 
in the long-term. And Saudi Arabia has an awful lot to do with 
achieving and sustaining that balance.
    Mr. Franks. Mr. Chairman, would Secretary Gates be allowed 
to answer the question?
    The Chairman. Go ahead.
    Secretary Gates. I would just add one sentence to what has 
already been said, and that is you look for small signs. And 
one of the things that I found interesting recently was a call 
by the king for an interfaith dialogue, inviting 
representatives of all of the religious faiths to get together 
and talk. And I think there is a concern on his part at the way 
Islam is being portrayed around the world and a desire to--he 
has had a dialogue with the Pope on these issues. And I think, 
you know, you take signs of progress where you can find them.
    Mr. Franks. Thank you, Mr. Chairman.
    Thank all of you.
    The Chairman. Mrs. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    And thank you to all of you for being here and for your 
service.
    I wanted to follow up on both the organizational ends. And, 
Secretary Rice, you talked about both ends of Pennsylvania 
Avenue, and I think there is a responsibility on both ends.
    And I wonder if you could address the organization of the 
executive branch. You talked about National Security Council, 
an advisor. Perhaps that is not the best umbrella, coordinating 
umbrella, because of a number of factors, including 
accountability and a host of others.
    How do you feel that the executive branch can be best 
organized in order for the Congress to be able to reflect that 
organization?
    We talk a lot about having a committee of cross-
jurisdictions. I think the frustration may be that we haven't 
had an executive branch organized in a way to actually have 
that interaction, to have that kind of engagement.
    And, you know, if you could--I know that perhaps you don't 
like to tell Congress how to do its job--but how do you see a 
Congress organized in the way that could be more reflective and 
responsive to what you think an executive branch should be 
doing in this area?
    Secretary Gates. I am going to take the lead on this one, 
because I may say some things that Condi wouldn't say. And I 
don't want her to get into trouble with her committees.
    First of all, I served on the NSC staff under four 
Presidents. And often the temptation, when there was an 
interagency issue, was, let the NSC do it. So the powers and 
role of the NSC has waxed and waned over the years. And 
generally when it has waxed and they have gotten into 
operational difficulties, they have ended up getting the 
President into difficulty. I can remember two, in particular, 
President Carter and President Reagan.
    And my view is that, just as the Chief of Mission 
represents the United States in a foreign capital, and although 
CIA would bridle at that at times, I think the relationship 
actually has worked very well.
    I think that the State Department is the proper place to 
oversee all of the elements of American foreign policy, and 
where there is accountability and where there is operational 
authority and the ability to persuade or work, coordinate 
others.
    The NSC clearly has a role in policy formulation and 
coordination and so on and so on. But part of the problem that 
the State Department has is that it can never be empowered--let 
me phrase it is a different way. The State Department does not 
have the authority, the resources, or the power to be able to 
play the role as the lead agency in American foreign policy. 
And the Congress has not been willing, decade-in and decade-
out, to give the State Department the kind of resources, 
people, and authority that it needs to play its proper role in 
American foreign policy.
    Now, that is a strange thing for a former Director of CIA 
and the Secretary of Defense to say, but I think that is the 
reality. And so I think that--I mean, the Secretary and the 
President have some proposals up here that would significantly 
strengthen the Foreign Service, strengthen the Department of 
Defense. As far as I am concerned, it is a start. They don't 
have the extra field planning, the way the military does, any 
more than they have a training float of people.
    So these issues need to be addressed if you think that the 
institutional solution is for the State Department to have the 
lead in the way American foreign policy is implemented.
    Mrs. Davis of California. I appreciate that, Mr. Secretary. 
And I agree wholeheartedly on the float issue, the need to have 
rehearsal time in working together, which, obviously, we 
haven't had those people.
    But I also would think, I mean, the pressure has been to 
fund the military because we have two wars going. So I think 
that the desire to do that, perhaps historically you haven't 
seen that. I think now there is an interest in doing that, but 
there is also the question of where that funding comes from.
    And I would think that, you know, there are continual 
questions that are being asked. The Center for Strategic and 
International Studies (CSIS) asked, you know, in their report--
that I think is a good one, and I hope you have had a chance to 
see that--you know, how realistic is it to expect that robust 
civilian capacity will emerge and be funded?
    Secretary Gates. I would just say, ma'am, that, first of 
all, compared to the resources of the Department of Defense, 
the dollars required to accomplish these objectives in the 
Department of State are pretty small by comparison. The 
Department of State, essentially--I may be off on the numbers 
somewhat, but the State Department budget is about $34 billion. 
That is less than the Defense Department spends on health care. 
And so, if you gave State Department an across-the-board 10-
percent increase in resources, you are still talking about a 
relatively modest amount of money.
    Mrs. Davis of California. A follow-up question about the 
interagency too, I mean, Commerce, Agriculture. So do you see 
that that would also help that?
    I will leave it there.
    Secretary Rice. If I may just add, I think that the--we 
have had requests before the Congress for the last three years 
for an increase in the Foreign Service. And I am hoping that 
this time--because we have made the request bigger. It was 230 
and 230, and it apparently didn't get people's attention. I am 
hoping that the 1,100 will be funded and the 300 for USAID.
    We are never going to have a Department that is big enough 
to do the kind of thing that we have done in Iraq or that we 
are doing in Afghanistan. That is why, again, I hope that the 
civilian response will also be funded because there you can 
draw on people in waiting, if you will. When we did the 
reconstruction in the Balkans, it was a sort of United Nations 
mission, and, frankly, it didn't work very well in places like 
Bosnia and Herzegovina. Then we did Afghanistan, and we did a 
kind of ``adopt a ministry.'' The Germans did one thing, the 
Italians another. We are paying for that with incoherence today 
in the civilian effort in Afghanistan.
    In Iraq, it was transferred to the Defense Department 
because they had the people and you wanted unity of command. I 
think we saw some shortcomings then in reconstruction in Iraq.
    What we need is a civilian agency that is sized for 
immediate contingencies, like a Liberia or a Haiti, but can be 
expanded accordion-like by pulling on expertise in the 
population at large. And I think this is a really good 
innovation, if we can get it funded and fully authorized.
    The Chairman. I thank the gentlelady.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Madam Secretary, Mr. Secretary, Admiral, thank you for 
joining us today. We appreciate all of your hard work.
    I notice, in your efforts to build partnership capacity 
here, that recently there is a developing collaborative effort 
between State Department and the U.S. Joint Forces Command in 
developing some online courseware in supporting integrated 
operations.
    And I would be interested if you would elaborate a little 
bit on that and talk about what may be the goals of this 
effort. And then, collectively, how would the respective 
Departments measure its effectiveness as going forward and 
building this capacity?
    Secretary Rice. Yes, we are trying to do this, both in 
online courses and also the Foreign Service Institute has been 
looking at its curriculum.
    I was at Joint Forces Command about two years ago or so, 
and they had at that time a serving political advisor (POLAD), 
as we call them, who was very interested in trying to capture 
some of the lessons we were learning from these joint 
operations. People tend to think of the PRTs, but you also have 
to think about what we have done in Colombia, what we have done 
in Mindanao, what we have done in places that are not always on 
the radar screen. And I think that the development of these 
courses will be very important.
    Now, I would suggest that we will evaluate them the way I 
would evaluate a course if I were at Stanford: Are people 
actually learning from them? There will be student evaluations. 
I think at some point we are going to have to look back at this 
entire effort and have outside evaluation of these courses.
    But I believe this is really a significant improvement in 
our ability to work with the military. Yesterday, when I was at 
Maxwell for the very nice honor that they bestowed on me, I 
said that this is a test of the Department of State learning to 
work better with the military and vice versa. And we are 
getting enough experience now that we are going to have to do a 
formal evaluation of lessons learned and a formal evaluation of 
how well we have done. And here we are light-years behind the 
military in doing that kind of work, and we are going to have 
to make it happen.
    Admiral Mullen. I am very encouraged by it. It is still 
relatively new. Just my own experience, in command in Naples as 
a North Atlantic Treaty Organization (NATO) commander at the 
four-star level, I had a political advisor. Literally, I could 
not have functioned as a commander. It would have done me no 
good to go to work on any day had I not had that kind of 
advice. But I didn't grow up that way, and we haven't grown up 
that way. So now embedding it further, there are State 
Department employees now participating in exercises. All of 
that is headed in the right direction.
    I also just spent some time with an ambassador designee who 
just left as a political advisor to one of our combatant 
commanders, and his experience there as a POLAD was 
extraordinary. And he said it will impact his view of how he 
becomes an ambassador, should he be confirmed, in ways that he 
hadn't even imagined. And it is planning and it is the kind of 
integration and the kind of collaboration that he learned in 
this job as well. So it goes both ways.
    We have, I think, 50 or 55 military members assigned to the 
State Department. We need to make sure we reach in and assign 
them well in the future and take advantage of that.
    So all of that is working, but we are still, I think, in 
the relatively early stages of where we need to go, long term.
    Mr. Wittman. Thank you, Mr. Chairman. I yield the balance 
of my time.
    The Chairman. Thank you.
    The gentleman from Georgia, Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman.
    Thanks to all of you for being here today and for your 
leadership.
    Secretary Gates, Admiral Mullen, it is particularly 
refreshing to hear how strongly you feel we should increase the 
capacity of State. As you have noted, Mr. Secretary, it is kind 
of odd to have a Secretary of Defense saying exactly that, but 
I think it is terribly important given the kind of threats that 
we face now and will face in the future.
    I would like to talk a little bit about Iraq and 
Afghanistan specifically, particularly Iraq. Countries that 
have an awful lot of their wealth based on oil struggle to have 
a democratic or representative government. It doesn't happen 
very often. So that presents quite a challenge for us, just 
given their circumstances to start out with, if what we are 
seeking for them and for us and for the world is a 
representative government in Iraq.
    And then you combine with that our history, which, as I 
understand it, has not been one of great success with regard to 
these efforts to build nations that are representative 
governments. If you look at the past pattern by the United 
States, we are excellent at building security forces, 
militaries, et cetera. We pale on the political end of it. We 
are not able to create quickly enough a class at will or a 
political aside to which the security forces remain. A 
charismatic civilian leader who works closely with the military 
ultimately winds up taking over.
    And I am concerned that the same thing might happen to us 
where Iraq is concerned. It has the embarrassment of riches 
where oil goes, and individuals fight like heck to get control 
of those kinds of riches in countries like Iraq. Afghanistan, 
on the other hand, is quite poor and has challenges caused by 
the fact that it is quite poor and resource-poor.
    It seems to me that we ought to be educating--and this is 
just sort of my view--that we ought to be educating Iraqis, 
particularly the politicians, those who would like to see a 
representative government, the religious leaders, about these 
challenges and asking them to think about how Iraq can avoid 
having another Hussein or a Musharraf or a Putin as its 
leadership in 5 years or 10 years. Certainly it is in our 
interest to educate them along these lines and to help them 
think through how they avoid that happening.
    I have thought also that it was probably wise for us to 
think about having our military intertwined with the Iraqi 
military or Iraqi security forces generally for the foreseeable 
future, in ways that make it less likely that the military will 
take over, that the security forces will take over.
    And my question is this, and I am going to ask that it be 
answered for the record. I don't think that this is a Crocker-
Petraeus kind of thing. I think they are too buried in day-to-
day, month-to-month challenges that make it difficult for them 
to step back, look at our history, look at the uniqueness 
associated with efforts to build nations in circumstances like 
this, and come up with a strategy. I think this has to be at 
the Secretary level. I think this has to be done here.
    And what I would like--and I talked with Mr. Skelton just a 
minute ago about what would be the appropriate timing for a 
report to us, getting back to us in writing--what are we doing 
about this? What are the two Departments that--obviously State 
and Defense are the two Departments to work on this. Is there a 
team thinking through these issues, looking at our history, 
looking at efforts like this and identifying this--if it is not 
a problem, let us know that it is not a problem; we don't have 
to worry about it. If it is a problem, then what are we doing 
to make it less likely that we wind up with some autocracy or 
oligarchy or whatever it is that typically winds up plaguing 
these kinds of countries and certainly has plagued in the past 
our efforts to do these sorts of things? It would be exactly 
the opposite of the result that we would like to see and that 
Iraqis generally would like to see.
    It seems to me that we have to have a strategy in place and 
to-do lists and specific things to be done. To me, at the very 
least, educating Iraqis, probably thinking about being 
intertwined. And, frankly, thinking that in our Status of 
Forces Agreement (SOFA) or what have you, they would be 
interested in having exactly that happen--would be things that 
should be considered.
    But I am not the person that should be thinking through 
this; I think you all should. So two weeks, get back with what 
we are doing and what is the to-do list, who is doing it, et 
cetera?
    Secretary Rice. We will certainly get back to you about the 
significant institution-building efforts, but, absolutely, we 
will get back to you.
    Mr. Marshall. Okay. Thanks. I didn't want to take any more 
than my five minutes. I was going to give my little spiel here 
in hopes that I am clear and in hopes that this can lead to a 
great report.
    Thank you.
    The Chairman. Thank you very much.
    And if you would get back for the record, we would 
certainly appreciate it, within two weeks, the gentleman 
suggests.
    [The information referred to can be found in the Appendix 
on page 81.]
    The Chairman. Dr. Gingrey, also from Georgia.
    Dr. Gingrey. Mr. Chairman, thank you.
    Chief Mullen, Secretary Gates, Secretary Rice, we thank you 
very much for the time you have spent with us this morning.
    My colleague from Georgia, Mr. Marshall, gives me kind of 
an excellent segue into my question that I am going to direct 
to you, Madam Secretary. I don't disagree with what he is 
saying at all in regard to what we end up with, and we want to 
make sure that it is the best that we can get.
    And in your testimony, Secretary Rice, you discuss 
challenges in assisting states in not only ending conflict but 
certainly establishing stable, civil societies and developing 
the means to care for those citizens and participate in the 
community of nations. And then you went on and you compared 
Colombia, where they were 10 years ago and where they are 
today. And I think it is right remarkable, the fact that 
President Uribe has done what he has done in the face of so 
much hostility in that region.
    I would like for you to elaborate on that distinction, 
because I do think this sort of relates to what Mr. Marshall 
had to say almost in reverse, and then also why it is so 
important that Congress go ahead and pass the Colombia Free 
Trade Agreement as soon as possible.
    Secretary Rice. Thank you.
    Well, Colombia is a success story, and it is a story of a 
state that was pretty close to a failed state in 2000. It is a 
story of the partnership that the United States has engaged 
with the Colombian people and the leadership. And it is a 
bipartisan story, starting with Plan Colombia, which helped 
them to build them the capacity to help defeat the terrorists. 
It is the story of not just military and police assistance, but 
also economic assistance to start to put the country on a more 
prosperous footing. And then it is the story of a political 
leader who is a strong, strong ally of the United States, who 
came to power determined to give his people, as he calls it, 
democratic security.
    And if my counterpart from Colombia was sitting here, the 
foreign minister of Colombia, you would be sitting with 
somebody who was held in captivity by the Revolutionary Armed 
Forces of Colombia (FARC) for six years and is now the foreign 
minister of Colombia. And that shows something about how far 
that country has come. I was in Medellin. It used to be 
synonymous with trouble and Pablo Escobar, and now it is a 
prospering, safer city.
    Now, we have to do the last step. When you help bring a 
country that far, you can't then abandon them and say, ``But we 
don't actually want you to have economic prosperity that comes 
from free trade.'' And if we turn our back on the Colombians, 
who have gone so far and done so much and are strong allies--in 
a part of the world, by the way, where I am always told, ``What 
is wrong with the American image in Latin America? Why can 
somebody like the Venezuela President make headway with 
countries that should be friends of America?'' Well, I can 
assure you we will do no greater harm to our ability to have an 
image of being a friend of the people of Colombia and a friend 
of Latin America than to fail to pass that free-trade 
agreement. That would do more harm than we could ever do in 
cutting off assistance or anything else, because the whole 
region is watching to see whether or not being a friend of 
America matters.
    Dr. Gingrey. Madam Secretary, I could not agree more. And, 
as I say to my colleague, in regard to getting it right in Iraq 
and how important that is, no question about it. We have gotten 
it right in Colombia, and now we are on the verge of pulling 
the rug out from under that great effort.
    So I appreciate your work there. And maybe my colleagues 
will see the light of day and understand that that is so 
important. It is not just a matter of balance of trade and 
removing those 35, 45 percent tariffs that we are paying to 
export our goods to Colombia and their goods coming into this 
country tariff-free; it is the security of this country and the 
security of the hemisphere.
    So I really appreciate your great work there. And, again, I 
hope and pray that this Congress will see the light of day in 
regard to that sooner rather than later.
    And I thank you for your testimony.
    The Chairman. The gentleman from Pennsylvania, Mr. Sestak.
    And, sadly, 12:30 will arrive very, very shortly, and we 
will have at least two members who will be unable to ask 
questions. But if you have questions for the record, feel free 
to give them to us.
    Mr. Sestak.
    Mr. Sestak. Thank you, Mr. Chairman.
    Mr. Secretary, to some degree, I have kind of watched the 
Department of Defense move toward more functional lines for 
unity of command: 1958, with the establishment of the unified 
commanders; more recently with the establishment of Special 
Forces Command. And those organizations--but they, kind of, 
tend to have a function.
    And as we have you come to Congress--and, as you point out, 
Secretary Rice has to go from here to talk about something, 
from here to another committee--what is your recommendation for 
how Congress should be better organized in order to address 
this issue and even to provide adequate oversight of any future 
change in the interagency process?
    And I didn't know if functions was an important issue or 
not of oversight of an organization.
    Secretary Gates. It is a really good question, and it is 
one that I have actually thought about a fair amount. And I had 
some recommendations when I retired as Director of Central 
Intelligence for how congressional oversight of intelligence 
could be improved.
    My worry is that Congress has no way to holistically look 
at the different pieces of national security. And we have been 
talking here today about how does the executive branch 
coordinate better, integrate better, exchange people, become 
more holistic in its own approach in how we deal with national 
security issues.
    And the problem is that Secretary Rice has the Foreign 
Affairs Committees, Admiral Mullen and I have the Armed 
Services Committees, Homeland Security has someplace else, the 
Intelligence Committees are someplace else. These are all 
integral parts of the interagency we have just been talking 
about.
    And while there may not be any way that is politically 
possible to change the committee structure itself in any 
fundamental way, perhaps there is a way to create some kind of 
an overarching joint committee where there are representatives 
from each of these committees, each of these authorizing 
committees, so that a certain body of senior Members of the 
Congress have the overview of what is going on in State 
Department and intelligence and in the military, in particular 
those three, so that the leadership of the Congress can look to 
whatever that number of people is for an integrated look at the 
balance of resources going one place or the other.
    Mr. Sestak. Thank you. I do think it is important we try to 
at least mirror what we are asking of you.
    My second question had to do--when the Commander in Chief 
back in the 1990's said there is really no more foreign 
policies and domestic policies; there is really only one 
national security policy.
    And as I watch as the authority request came across, Ms. 
Secretary, that, as you go into 1206, you have to give 
concurrence to the authority. Again, I will come back to the 
issue of unity of command, even if it is a more functional 
approach. But you have coordination authority in 1207. And 1207 
gives Explosive Ordnance Disposal (EOD) efforts to Lebanon, 
Haiti, Somalia, Trans-Sahara, Nepal.
    Should you have--is the example of authority approval--
since there is really just one national security policy. You 
kind of established the first-line-of-offense, so to speak, 
diplomacy. Should the model of concurrence by you be the model 
that we should have also for 1207 and all the other attendant 
authorities that have come across? Because there is a score of 
them, as you know.
    Secretary Rice. Well, in practice, it has not been a 
problem, in practice.
    Mr. Sestak. If I may, Mr. Gates made a very insightful 
comment. Your bureaucracies know you get along. It might not 
always be Mr. Gates, and it hasn't always been Mr. Gates. So it 
hasn't been a problem, but as you look down the road----
    Secretary Rice. Well, it is something to keep an eye on. 
But we have thought of 1207 as a civilian support to 
essentially militarily essential missions. So I think that is 
why the authority has worked the way that it has. Whereas 1206 
spoke to what had been more traditionally a State Department 
function, which is the train and equip, because obviously you 
want it to be a part of a broader foreign policy effort toward 
a particular state. And it has all of the ramifications.
    But it is something we should look at. I think, at this 
point, because we consider it to be civilian support to 
military operations, we have been comfortable with the 
authority.
    Mr. Sestak. If I could follow up, the only reason I brought 
it up is, like, in Somalia, it has to do with justice reform.
    Was that the bell?
    Thank you very much.
    The Chairman. Please answer the question.
    Secretary Rice. I am sorry. You were----
    Mr. Sestak. That is all right. I was just going to follow 
up. Since I saw something having to do with justice reform or 
police reform, I did not know if the final authority should be 
DOD, particularly when you are getting into places. But I think 
you have answered it for right now. It is something to look at.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Secretary Gates, on a related subject, the Guard 
Empowerment Act calls for a four-star chief of the National 
Guard Bureau. Would you, for the record, furnish us with the 
status of that effort which was in our last bill?
    Secretary Gates. Yes, sir. I will just tell you very--we 
will give you an answer for the record. Just in one sentence, 
we are in the process, in accordance with the statute, of going 
out and seeking the input of each of the Governors.
    [The information referred to can be found in the Appendix 
on page 81.]
    The Chairman. We certainly appreciate that.
    There is no way to thank you enough. This has been a 
historic hearing with excellent testimony.
    And, Admiral, thank you for being with us.
    And, Secretary Gates, Secretary Rice, thank you for your 
service and your testimony.
    Mr. Hunter. Mr. Chairman.
    The Chairman. And Mr. Hunter will say good evening 
formally.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Mr. Chairman, thanks for having this hearing, I think 
excellent exercise.
    I would just say that I think, Secretary Rice, you made a 
very accurate statement when you said that, out of these 
ongoing contingencies and operations, reforms will come about 
that will have a salutary effect on both services.
    You have two major operations going on right now, Iraq and 
Afghanistan. And I think in many areas we see the need for 
reform, for change, for seeing what works and moving ahead with 
it quickly. And especially Afghanistan, Mr. Secretary, the 
command and control situation, rules of engagement, other 
areas, at this point need a review, need a good scrubbing. I 
hope we can work with you in the coming weeks to effect some 
changes there.
    Thank you very much, Mr. Chairman. Excellent hearing.
    The Chairman. Thank you.
    History is made by testimony such as yours. Thank you.
    [Whereupon, at 12:34 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             April 15, 2008

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 15, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5514.001
    
    [GRAPHIC] [TIFF OMITTED] T5514.002
    
    [GRAPHIC] [TIFF OMITTED] T5514.003
    
    [GRAPHIC] [TIFF OMITTED] T5514.004
    
    [GRAPHIC] [TIFF OMITTED] T5514.005
    
    [GRAPHIC] [TIFF OMITTED] T5514.006
    
    [GRAPHIC] [TIFF OMITTED] T5514.007
    
    [GRAPHIC] [TIFF OMITTED] T5514.008
    
    [GRAPHIC] [TIFF OMITTED] T5514.009
    
    [GRAPHIC] [TIFF OMITTED] T5514.010
    
    [GRAPHIC] [TIFF OMITTED] T5514.011
    
    [GRAPHIC] [TIFF OMITTED] T5514.012
    
    [GRAPHIC] [TIFF OMITTED] T5514.013
    
    [GRAPHIC] [TIFF OMITTED] T5514.014
    
    [GRAPHIC] [TIFF OMITTED] T5514.015
    
    [GRAPHIC] [TIFF OMITTED] T5514.016
    
    [GRAPHIC] [TIFF OMITTED] T5514.017
    
    [GRAPHIC] [TIFF OMITTED] T5514.018
    
    [GRAPHIC] [TIFF OMITTED] T5514.019
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 15, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5514.020
    
    [GRAPHIC] [TIFF OMITTED] T5514.021
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 15, 2008

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. SKELTON

    Secretary Gates. As required by statute, the Department has 
requested nominations from the Governors, and those nominations are due 
to the Department by May 31, 2008. After reviewing these nominations 
and considering the Military Department Secretaries' recommendations, I 
will make a recommendation to the President. [See page 49.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. MARSHALL

    Secretary Rice. Please see the following response sent to 
Congressman Marshall and Chairman Skelton in a letter signed by 
Assistant Secretary of Defense for Legislative Affairs, Robert Wilkie 
and Assistant Secretary of State for Legislative Affairs, Jeffrey 
Bergner on July 2, 2008. [The letter can be found in the Appendix on 
page 77. Attachments referred to in the letter were not available at 
the time of printing.] [See page 45.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 15, 2008

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. SPRATT

    Mr. Spratt. Secretary Robert Gates and Secretary Rice, on the basis 
of your testimony, it appears that much of the funding that would be 
derived from Sections 1206, 1207 and 1208 would be channeled into 
international commitments that are open-ended and typically addressed 
in an ad hoc manner. A prevalence of unknown variables would support 
the presumption that many of these commitments will require persistent 
national attention and recurrent funding in order to be satisfied. Do 
our open ended partnership capacity building, train and equip, and 
stabilization and reconstniction commitments compromise our strategic 
or diplomatic flexibility in any way? Would more focused or discrete 
applications of these funding lines enable us to address a broader 
range of achievable and affordable international objectives?
    Secretary Gates. The authorities in Section 1206, 1207, and 1208 
each meet fundamentally different objectives. None of them, however, 
compromise US strategic or diplomatic flexibility. Quite the contrary, 
they increase this flexibility by providing more resources for the 
Secretary of Defense and Secretary of State to meet needs in critical 
areas where traditional diplomatic or military authorities have been 
insufficient.
    Far from being open-ended commitments unduly influenced by 
diplomatic engagements and expectations, each of these programs is 
based on strategic priorities to meet US-identified capability gaps. 
Our intent is to apply resources strategically to achieve discrete 
national security objectives. Since these programs are not guaranteed 
to any one country--and are instead distributed based on the merits of 
the projects for any given year--they discourage partners from assuming 
such assistance is entitled. We coordinate our programs closely with 
State to ensure appropriate de-confliction with traditional State 
Department programs, like FMF and IMET, which require multi-year 
funding commitments and meet broader foreign policy objectives. When 
coupled with the Secretary of State's foreign policy toolkit and 
applied strictly to military capability gaps, we can positively affect 
capacity building efforts.
    Investments from all three programs provide a low-cost, high return 
instrument for early action that can save the United States substantial 
money over time. As partners take on more of their own security 
burdens, or deploy effectively alongside U.S. forces, we reduce near-
term stress on our own military and the potential for future U.S. 
military interventions. Similarly additional civilian assistance in 
establishing the promise of increased stability means fewer 
requirements for U.S. forces for missions best conducted by civilian 
agencies. Such assistance allows us to address an unstable situation 
before it becomes a crisis.
    Mr. Spratt. On the basis of your testimony, it appears that much of 
the funding that would be derived from Sections 1206, 1207 and 1208 
would be channeled into international commitments that are open-ended 
and typically addressed in an ad hoc manner. A prevalence of unknown 
variables would support the presumption that many of these commitments 
will require persistent national attention and recurrent funding in 
order to be satisfied. Do our open ended partnership capacity building, 
train and equip, and stabilization and reconstruction commitments 
compromise our strategic or diplomatic flexibility in any way? Would 
more focused or discrete applications of these funding lines enable us 
to address a broader range of achievable and affordable international 
objectives?
    Secretary Rice. Sections 1206 and 1207, coordinated between DOD and 
State, are available to address urgent crises or opportunities that 
could not have been foreseen in the regular foreign assistance planning 
process. They generally fund discrete projects intended to build 
partner capacity, rather than open-ended commitments. Where additional 
funding may be required, the regular foreign assistance budget planning 
process takes this into consideration. These mechanisms do not hinder 
our strategic or diplomatic flexibility; rather, they enhance our 
flexibility to respond to crises or opportunities in ways that our 
normal processes cannot sufficiently address.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. MARSHALL

    Mr. Marshall. Secretary, General Petraeus recently came before the 
House Armed Services Committee to brief us on the progress of President 
Bush's troop escalation in Iraq. As Commander of Multinational Forces 
in Iraq, it's General Petraeus' job to focus on Iraq. Secretary Gates, 
it is your responsibility to see the big picture. Media accounts have 
suggested that there is a great deal of disagreement within the 
Department of Defense about General Petraeus' conclusions. One report 
from about six months ago stated that an internal Pentagon working 
group was putting together a report that would recommend a very rapid 
reduction in American forces--as much as two-thirds of the existing 
force very quickly--while keeping the remainder there. An unnamed DOD 
official was quoted as saying, ``There is interest at senior levels [of 
the Pentagon] in getting alternative views [to Petraeus].'' I think 
there's an interest in Congress in getting both sides of the story from 
the Pentagon as well. My question to you Secretary Gates is when will 
Congress see this report and can you tell us anything about it? 
Specifically: Who ordered it to be written and who was involved in 
writing it? Has it been completed, and if not when do you expect it to 
be completed? What are its exact recommendations? If DOD will not 
provide the report to Congress, what are the department's reasons for 
withholding such information? Has the report been presented to General 
Petraeus, you, or the President?
    Secretary Gates. Contingency planning is a routine part of overall 
military strategic planning processes. With reference to your specific 
question, the Joint Staff Director of Plans and Policy was tasked by 
the Chairman of the Joint Chiefs of Staff to develop multiple force-
planning options regarding troop levels in Iraq, which were then 
briefed to General Petraeus. The Director's input was one of many used 
by the Chairman to provide military advice to the Secretary of Defense.
    The Department has a long-standing practice and policy that 
operational plans, including contingency plans, are not releasable or 
routinely shared with Congress or with other parts of the Executive 
Branch. A number of time-proven reasons for this policy exist, 
including operational security, the requirement for continuous update 
and modification of plans to account for changing security conditions, 
and the need to protect an operational commander's ability to modify 
operational plans based on the changing operational environment.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CONAWAY

    Mr. Conaway. How much training would be involved in standing up the 
Civilian Response Corps? How is their ability to deploy quickly going 
to be maintained? Who's going to manage this effort? When activated/
deployed will they maintain a status as a contractor or government 
employee?
    Secretary Gates. The Department remains committed to supporting the 
establishment of the Civilian Response Corps (CRC) and encourages 
congressional funding to ensure the program achieves its full 
potential. The responsibility for establishing the CRC is assigned to 
the Department of State. Composition of the CRC does not include 
employees or contractors of the Department of Defense. As a result, 
DoD's role is that of supporting the State Department, primarily by 
sharing our extensive knowledge and expertise of training, deployment, 
sustainability, and management issues, achieved through decades of 
experience for this type of capability. To date, DoD has assisted the 
State Department across a range of CRC issues. These include the 
development of a training strategy which leverages the many DoD 
educational and training institutions' current curricula and knowledge 
base. DoD is also assisting in highlighting logistical considerations 
as well as resource requirements for maintaining a CRC deployment 
capability in the out years. This includes identification of a training 
and deployment facility, of which several existing DOD locations are 
under consideration.
    I defer to the Department of State for further details on the CRC.
    Mr. Conaway. How much input has DOD had in the FMF process 
historically and how much today? Is DOD providing enough perspective/
insight to make this effective? Please explain.
    Secretary Gates. Historically, DOD has had a reasonable amount of 
input to the FMF process, working closely with State to determine 
recommended budget allocations. Initially, the institution of the ``F'' 
Process at the State Department limited DOD's involvement in the 
formulation of the FMF budget. There has recently been a marked 
improvement in DOD's access to the ``F'' Process, and we expect that 
such collaboration will continue to improve.
    Each year DOD goes through a rigorous requirements gathering 
process for FMF. FMF requests are formulated by Security Assistance 
Officers in the field, and are then reviewed by the Joint Staff, the 
Defense Security Cooperation Agency and OSD. These submissions are the 
basis for our input to State on the military requirements for Security 
Assistance. DOD is continually improving the processes by which we 
identify and compile FMF requirements in order to ensure that we 
provide the necessary perspective/insight to State. We are hopeful that 
increased collaboration and improved processes will lead to more robust 
and even more effective FMF and IMET budgets in the future.
    Congressional earmarks on FMF can often render a carefully 
constructed budget less effective from a strategic standpoint. Fiscal 
Year 2008 is a perfect example of this phenomenon. Out of a total FMF 
budget of $4.5 billion, only approximately $80 million was fully 
discretionary. With such a small amount of FMF funding completely free 
of earmarks, in either the appropriation itself or the accompanying 
committee report, we are hard pressed to meet worldwide requirements 
for long-term capacity building. We are strongly supportive of the 
Administration's request for an increased FMF budget for Fiscal Year 
2009.
    Mr. Conaway. How much training would be involved in standing up the 
Civilian Response Corps? How is their ability to deploy quickly going 
to be maintained? Who's going to manage this effort? When activated/
deployed will they maintain a status of contractor or government 
employee?
    Secretary Rice. All members of the Civilian Response Corps (CRC) 
will be U.S. Government employees. The Corps will be comprised of 
personnel representing eight different USG departments or agencies.
    The Corps will be managed by the Department of State's Office of 
the Coordinator for Reconstruction and Stabilization (S/CRS). S/CRS 
collaborates and works closely with the eight participating agencies 
through the Reconstruction and Stabilization Policy Coordinating 
Committee.
    The interagency reconstruction and stabilization training strategy 
for the Civilian Response Corps incorporates five training phases.

        1.  Orientation Training--all Corps members will undergo a 2-3 
        week program that will establish baseline knowledge and skills 
        required to operate effectively in a reconstruction and 
        stabilization environment.

        2.  Annual Specialized Training--Active Component members will 
        receive up to eight weeks of Annual Specialized Training. 
        Standby Component members will receive up to two weeks of 
        Annual Specialized Training. Prior to deployment, Corps members 
        with specific positions (e.g. Police Advisors, Lead Interagency 
        Planners, etc.) will receive mandatory Annual Specialized 
        Training to effectively perform their jobs.

        3.  Pre-deployment Training--all Corps members are required to 
        take Pre-deployment Training that includes health, safety, 
        first-aid, security, and mission-specific curriculum prior to 
        consideration for mission deployment. Active Component members 
        will undergo Pre-deployment Training immediately following 
        Orientation Training to maintain constant operational readiness 
        for quick reaction deployments.

        4.  In-theater Continuity Training--to provide any additional 
        training needed to maintain continuity of operations, Corps 
        members will receive In-theatre Training, as appropriate and 
        feasible, with their assigned organization, and/or those people 
        with whom they are likely to work.

        5.  Re-integration Training--all Corps members returning from 
        deployments are required to undergo Re-integration Training to 
        ensure adequate support and facilitate their readjustment to 
        life back in the United States.

    Although not yet fully developed, the Reserve Component would 
undergo similar training to that provided for the Active and Standby 
components.
    To quickly deploy Corps members, S/CRS, in collaboration with 
USAID, will maintain a master database of all members which will track 
medical and security clearances, completed training, immunizations, and 
other relevant information. S/CRS will work with partner department and 
agency Response Corps Coordinators to ensure that all Active Component 
members are deployable upon 48 hours notice, and that all Standby 
Component members are deployable on 30 days notice. To maintain 
operational readiness, S/CRS and USAID will purchase and supply 
equipment, including fully armored vehicles, for rapid deployment.
    Mr. Conaway. How much input has DOD had in the FMF process 
historically and how much today? Is DOD providing enough perspective/
insight to make this effective? Please explain.
    Secretary Rice. DOD is actively involved in all aspects of the 
security assistance process, especially for FMF. In fact, the depth and 
breadth of DOD interaction in the State Department's foreign assistance 
budget process for the past 2 years has been unprecedented.
    The State Department conducts interagency regional ``roundtable'' 
discussions to address security assistance objectives and priorities on 
an annual basis. Participation from DOD typically includes the Office 
of the Secretary of Defense, Defense Security Cooperation Agency, Joint 
Staff, and the combatant commands. These discussions serve as the 
framework for developing the security assistance budget requests which 
ultimately must be weighed against other assistance priorities.
    The State Department, after receiving DOD's input at the beginning 
of each budget cycle, determines where the needs and requirements are 
and what USG priorities should be. Once security assistance funds are 
appropriated, DOD plays an active role in recommending allocations and 
implementing security assistance programs. In consultation with the 
State Department, DOD continues to refine its input to the process in 
order to ensure that validated, prioritized needs for military 
assistance are effectively conveyed.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MRS. GILLIBRAND

    Mrs. Gillibrand. Secretary Gates, can you begin to use the Reserve 
Components more for reconstruction efforts because of their civilian 
experiences versus their military training? For example, we are sending 
Guard members to Afghanistan who have agricultural experience. Can we 
begin to expand their training to complement the Civilian Response 
Corps?
    Secretary Gates. Using the Iraqi Provisional Reconstruction Team 
model that we successfully employed, we will continue to ask for 
volunteers from our Reserve and National Guard Components, including 
our retired Reserve members, to use their civilian expertise and 
experience in support of the various reconstruction requirements that 
would complement the Civilian Reserve Corps activities in Afghanistan.
    Because of the very limited training time available for Reserve 
Component members, we must continue to focus on preparing them to 
perform in their designated military skill and meet their readiness 
requirements. However, that does not preclude the Department from 
preparing a reservist who has volunteered for a particular assignment 
based on his or her civilian skill or experience so he or she can 
safely and effectively carry out that assignment.
    Mrs. Gillibrand. What does ``victory'' in Afghanistan look like? 
Does it not require greater troop levels from the US and NATO allies? 
How can we more effectively combat corruption there? We need an 
Inspector General at a minimum there do we not'? How do we use our 
leverage more effectively to inspire a greater commitment from our NATO 
allies'?
    Secretary Rice. As you know, our commanders have requested 
additional troops for Afghanistan, and meeting this need is a priority 
for this administration. President Bush has ordered two deployments--
next month a Marine battalion that was to be deployed to Iraq, and 
early next year an Army brigade--which combined will add 8,000 new 
troops to our forces in Afghanistan. In all, the number of American 
troops in the country has increased from less than 21,000 two years ago 
to nearly 31,000 today. But we are not alone. During the past year, the 
United Kingdom, France, Poland, Bulgaria, Romania, Australia, Germany, 
Denmark, the Czech Republic, and others have sent additional forces to 
support the NATO mission in Afghanistan. Over the past two years, the 
number of non-U.S. Coalition troops--including NATO troops--increased 
from about 20,000 to about 31,000. We continue to appeal to our 26 
Allies and 14 partners and last week at the NATO Defense Ministerial in 
Budapest, Secretary Gates urged Ministers of Defense to do even more.
    In addition to more troops, we need to give Allied commanders on 
the ground more flexibility so they can use their forces most 
effectively. We understand the political constraints under which our 
Allies operate, but less flexibility requires more troops and prolongs 
the mission. We continue to appeal to them to lift these caveats. Also, 
last week in Budapest the Defense Ministers directed ISAF troops to 
conduct counter-narcotics interdiction operations for the first time. 
Afghanistan produces most of the worlds opium that is used to make 
heroin and it is estimated that the Taliban receives $100 million 
annually from the illegal drugs trade.
    ISAF is also working closely with the Afghans to build up their 
defense forces. Recently, the Afghan government requested and the Joint 
Coordination and Monitoring Board approved an increase in the Afghan 
National Army from 80,000 to 122,000 soldiers. With our support, the 
Afghan National Army has made great progress in the past several years 
and is seen as the most competent, professional and trusted institution 
in Afghanistan. It is increasingly capable of independently planning 
and carrying out missions--from July to August the ANA has taken the 
lead in 62% of all operations. We are currently engaging nations around 
the world, not only those who have troops in Afghanistan, to contribute 
to the sustainment costs of the ANA. The stability of Afghanistan is in 
the world's interest, and we are asking capitals for their support of 
the ANA. On the Afghan National Police (ANP), the Focused District 
Development (FDD) is off to a great start and is succeeding in 
improving police professionalism. FDD utilizes successful techniques 
from our training missions with the Afghan Army, and we continue to 
expand the program. Since the beginning of 2008, over 11,000 of the 
roughly 78,000 police have graduated from training programs.
    Although we are committed to ensuring a robust fighting force in 
Afghanistan, the military angle is only one part of the solution in 
Afghanistan. Since the fall of the Taliban much has been accomplished. 
Afghanistan has a democratically-elected President and parliament, and 
next year they will hold the second round of national elections. 
Countless development projects have been undertaken; roads, hospitals 
and schools have been built. More Afghans have access to basic medical 
attention and education than ever before. This progress is impressive, 
but the Afghan government needs to be even more responsive to the needs 
of its people in order to turn the tide. And, the Afghan people need to 
believe they have a stake in their country's future. Good governance 
and security are required components for economic growth, and our 
assistance is necessary to help the Government of Afghanistan expand 
out to the provinces and the districts the progress made in at the 
national level in Kabul.
    The Provincial Reconstruction Teams (PRTs) have been very 
successful, and we are looking at how we can expand and improve upon 
them. We are also considering increasing our support for provincial 
governors, to give them more ability to identify and direct assistance 
dollars in a way most relevant for their communities. In all these 
ways, we and our Allies and partners are working to ensure that 
military progress is accompanied by the political and economic gains 
that are critical to success in Afghanistan.
    Regarding corruption, it is endemic in Afghanistan and exists in 
all aspects of society. Large influxes of cash from the drug trade, 
international investment, U.S. and international assistance programs, 
and a lack of accountability at the ground level are all contributing 
factors to the prevalence of corruption in Afghanistan. A Special 
Inspector General for Afghanistan Reconstruction (SIGAR) has been 
appointed to ensure accountability during the period of U.S. 
involvement in the reconstruction of Afghanistan. SIGAR has a highly 
specialized mission, and reports to both the Secretary of Defense and 
the Secretary of State on its independent and objective oversight of 
Afghanistan reconstruction. It is focused on promoting economy, 
efficiency and effectiveness, as well as preventing and detecting 
waste, fraud and abuse in reconstruction programs and operations 
supported by the Afghanistan reconstruction funds. The Special 
Inspector General, Arnold Fields (Maj. General Retired), was sworn in 
22 July 2008. Partial funding for the SIGAR was allocated in September 
and October 1, 2008. Its first quarterly report to Congress is due on 
October 30, 2008.
    Additionally, the U.S. is working to develop a more coherent 
response to corruption with three areas of focus (elaborated below):

        1)  Improved internal accountability to ensure that USG funds 
        are spent on assistance programs and not diverted to enrich 
        warlords or corrupt politicians.

        2)  Assistance to the Afghan Government to improve their 
        ability to investigate corruption charges, prosecute corrupt 
        officials, and reduce and eliminate street level corruption 
        among police, judges and low level government officials.

        3)  Coordinate with our NATO allies, military and civilian 
        contractors and other major players in Afghanistan to ensure 
        that they are implementing similar controls against corruption.

    Improved Internal Accountability: In order to improve internal 
accountability, the Department of State established the Afghanistan, 
Iraq, Jordan Support Group (AIJS) to assist with all Bureau of 
International Narcotics and Law Enforcement (INL) contracts issued in 
Afghanistan, Iraq and Jordan. AIJS has improved contract management and 
the dispersion of funds on these critical contracts, and also has been 
able to more accurately track the funds expended by Department of State 
contractors in the region to ensure that all funds are being used for 
their intended purpose. In addition, INL's justice assistance reform 
projects are carefully designed to target gaps in the Afghan criminal 
justice system, with a mixture of training, mentoring, administrative 
reform, and direct assistance to ensure that funds are being spent in 
the most appropriate and effective way.
    Assistance to the Afghan Government: INL, through their Justice 
Sector Support Program (JSSP) and Corrections System Support Program 
(CSSP) have worked directly with the Afghan government to implement 
policy, programmatic, personnel, and administrative reforms intended to 
reduce and eliminate corruption in key areas of the Ministry of Justice 
(including the Central Prisons Directorate) and Attorney General's 
Office. This includes Priority Reform and Reorganization (PAR), a 
comprehensive personnel reorganization that ensures all positions are 
appropriately planned and filled, through a competitive process, by the 
most qualified candidate. This is a foundational reform to help ensure 
that all justice practitioners nationwide are competent, trained, and 
that they receive a living wage (an incentive to stay away from petty 
corruption). Also, INL is working with the Attorney General's Office to 
establish ACE, the Anti-Corruption Enforcement Unit made up of 
specially vetted prosecutors who are trained to investigate and 
prosecute corruption and financial crimes cases.
    INL's on the ground programs have also established a case tracking 
and management system to promote a transparent, fair, efficient, and 
secure process for criminal investigations, prosecutions, trials, and 
incarceration. This review effort is being implemented right now to 
review all prisoner cases, augment sparse records, and immediately 
release prisoners who are being held after their sentences have been 
completed. This new system will reduce opportunities for government 
officials to extort money from defendants, potentially at every step of 
the criminal justice process.
    The Supreme Court recently released a review of all corruption-
related efforts in Afghanistan, and the newly-appointed Attorney 
General appears to be committed to efforts to reduce corruption 
nationwide. President Karzai has recently established a ``High Office 
of Oversight'' to combat corruption within the Afghan government, 
although the details of implementation of this decree have yet to he 
worked out. INL and Department of Justice support the Criminal Justice 
Task Force, which has prosecuted a large number of low and mid-level 
defendants charged with drug trafficking and narcotics-related 
corruption. However, the Afghan government still has a long way to go, 
and has not, as of yet, demonstrated the political will to slow down 
corruption at the highest levels or go after any corrupt officials in 
politically sensitive positions.
    Coordinate with the International Community:
    The U.S is working closely with NATO allies, particularly the U.K. 
and Norway, to develop anti-corruption measures. (In particular, we are 
partnered with the U.K. and UN on the ACE project, and the U.K. and 
Norway on the CJTF project). Anti-corruption was a focus of documents 
adopted by the international community and Afghan government at the 
Rome Conference focused on justice reform in July 2007. Anti-corruption 
is also a main focus of the National Justice Sector Strategy, which 
outlines reform needs and commitments over the next five years. We 
encourage NATO and other allies to continue and increase funding for 
the entire justice sector, including anti-corruption.
    Mrs. Gillibrand. How can we get better oversight and accountability 
over US funds provided to Pakistan? Should we have an Inspector 
General?
    Secretary Rice. The U.S. Government provides assistance to Pakistan 
through the U.S. Agency for International Development, Department of 
State, and Defense Department programs, all of which are subject to 
longstanding oversight and accountability mechanisms, through their 
respective Inspector Generals. These Inspectors General coordinate 
closely regarding oversight projects in Pakistan and have published a 
comprehensive joint audit plan for South West Asia. Additionally, the 
State Inspector General's office already has an office dedicated to the 
Middle East and South and Central Asia to focus on high-cost, high-risk 
programs. Creating a new Inspector General position specifically for 
Pakistan is not necessary.
    With regard to the Coalition Support Fund program, in April 2008, 
the Department of Defense Inspector General completed an investigation 
of Department of Defense oversight and administration of the Program. 
This report is currently being finalized and readied for publication.
    Mrs. Gillibrand. Should we be able to direct funding to 
reconstruction and civilian investments such as healthcare, education 
and economic development?
    Secretary Rice. In late 2007, the U.S. Government shifted much of 
its Economic Support Fund (ESE) assistance for Pakistan from direct 
budget support to project-specific funding for healthcare, education, 
and economic development. During fiscal years 2005-2007, the U.S. 
Government provided $200 million per year in direct budget support to 
help the Pakistani Government implement economic reform measures and 
increase its spending on education and health. In fiscal years 2008 and 
2009, however, assistance will be provided to support specific 
education and health projects, instead of direct budget support.
    Our assistance priorities in Pakistan will continue to be promotion 
of democracy, economic development and growth, and security. We view 
these activities as a long-term partnership with the Government of 
Pakistan, its people and institutions.
    As part of this goal, we look forward to working with Congress and 
the new Pakistani government on expanding U.S. assistance for 
Pakistan's continued democratic, economic, and social development. We 
believe the restoration of democracy in Pakistan provides an important 
opportunity to demonstrate our long-term commitment, expand U.S. 
programs, and help the Pakistani people and new civilian government 
meet the challenge of transforming Pakistan into a prosperous, 
democratic, and stable international partner committed to delivering 
good governance and combating violent extremism within its borders.

                                  <all>

</pre></body></html>
